APPENDIX

TABLE OF APPENDICES
Appendix A
Modified Opinion, United States Court of
Appeals for the Federal Circuit, Sprint
Commc’ns Co., L.P. v. Time Warner
Cable, Inc., No. 17-2247 (Mar. 18, 2019) .... App-1
Appendix B
Opinion, United States Court of Appeals
for the Federal Circuit, Sprint Commc’ns
Co., L.P. v. Time Warner Cable, Inc.,
No. 17-2247 (Nov. 30, 2018) ...................... App-27
Appendix C
Order Denying Rehearing En Banc,
United States Court of Appeals for the
Federal Circuit, Sprint Commc’ns Co.,
L.P. v. Time Warner Cable, Inc.,
No. 17-2247 (Mar. 18, 2019) ...................... App-52
Appendix D
Order re: Panel Rehearing, United States
Court of Appeals for the Federal Circuit,
Sprint Commc’ns Co., L.P. v. Time
Warner Cable, Inc., No. 17-2247 (Mar. 18,
2019)........................................................... App-54
Appendix E
Memorandum and Order, United States
District Court for the District of Kansas,
Sprint Commc’ns Co., L.P. v. Time
Warner Cable, Inc., No. 11-2686
(May 30, 2017) ........................................... App-56

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 17-2247
________________
SPRINT COMMUNICATIONS COMPANY, L.P.,
v.

Plaintiff-Appellee,

TIME WARNER CABLE, INC., TIME WARNER
CABLE, LLC, TIME WARNER ENTERTAINMENT CO., L.P.,
TIME WARNER ENTERTAINMENT-ADVANCE/NEWHOUSE
PARTNERSHIP, TWC COMMUNICATIONS, LLC,
TIME WARNER CABLE INFORMATION
SERVICES (KANSAS), LLC,
Defendants-Appellants.
________________
Opinion Issued: Nov. 30, 2018
Opinion Modified: Mar. 18, 2019 *
________________
Before Chen, Mayer, and Bryson, Circuit Judges.
________________
OPINION
________________

* This opinion has been modified and reissued following a
petition for en banc rehearing filed by appellants.

App-2
BRYSON, Circuit Judge.
This patent infringement case was brought by
Sprint Communications Company, L.P. (“Sprint”)
against Time Warner Cable, Inc., and several of its
affiliates (collectively, “Time Warner”) in the United
States District Court for the District of Kansas. Sprint
is the owner of the five patents-in-suit: U.S. Patent
Nos. 6,298,064 (“the ’064 patent”); 6,343,084 (“the ’084
patent”); 6,463,052 (“the ’052 patent”); 6,473,429 (“the
’429 patent”); and 6,633,561 (“the ’561 patent”).
Following trial, the jury found all five patents
infringed and returned a verdict of approximately
$140 million in Sprint’s favor. We affirm.
I
The technology at issue in this case involves
methods for linking circuit-switched and packetswitched networks within a telecommunications
system. The invention at the heart of the patents in
suit is a method for using a packet-switched network
to transport telephone calls and data to and from the
existing circuit-switched network for telephone
communications known as the Public Switched
Telephone Network (“PSTN”). The inventions allowed
telephone calls and data to be transmitted between
those two different networks seamlessly.
The traditional PSTN used circuit switching to set
up an end-to-end path for each call. In a circuitswitched network, a user’s telephone connects to a
switch, and the switch determines, based on the dialed
number, which switch will be selected as the next
switch in the path. That process continues switch-byswitch until the switch that is connected to the called
party is reached. The signaling between the switches

App-3
establishes a fixed circuit for the entire call, and the
call occupies the entire bandwidth of that circuit for
the duration of the call.
The traditional circuit-switched technology works
well for voice communications, but less well for data
communication. Because data communication tends to
come in bursts rather than as a continuous
transmission of information, the use of a fixed circuit
for data transmission can be wasteful of bandwidth
during periods in which data is not being transmitted
but the circuit remains active. Accordingly,
communications companies developed packet-based
solutions to increase the efficiency of data
communications. Two types of packet-based
technology that are pertinent to this case emerged:
(1) asynchronous transfer mode technology (“ATM”),
which used “virtual circuits” that established fixed
routes for communications but enabled multiple users
to share the circuits at the same time; and (2) internet
protocol (“IP”) technology, in which each IP router in
an IP network would make an individual routing
decision for each packet based on the ultimate
destination of the packet. In the IP system, individual
packets that are part of a single communication can
travel different paths to the same destination.
The patents at issue in this case fall into two
groups: the “call control” patents (the ’052 and ’561
patents) and the “broadband” patents (the ’064, ’084,
and ’429 patents). The call control patents describe
methods for telecommunication control of calls to and
from the packet-switched communication network.
The broadband patents address the interface between
circuit-switched (or “narrowband”) networks and

App-4
packet-switched (or “broadband”) networks. Sprint
accused Time Warner of infringing the call control and
broadband patents by using a Voice over Internet
Protocol (“VoIP”) service, which converted calls into
packet data, transmitted the call over an IP network,
and provided for connectivity to the PSTN.
II
A. The Admission Of The Vonage Verdict
Time Warner’s first contention on appeal is that
the district court improperly permitted Sprint to
introduce evidence relating to the jury verdict in an
earlier, related case brought by Sprint against
Vonage, another carrier offering VoIP service. That
case involved the same technology that was at issue in
this case and resulted in a damages award against
Vonage. Time Warner contends that the admission of
the evidence relating to the Vonage verdict prejudiced
it and requires that it be granted a new trial.
The district court ruled that the Vonage evidence
was relevant to the jury’s assessment of reasonable
royalty damages under a hypothetical negotiation
theory. The court gave the jury an instruction limiting
the use of that evidence to the jury’s consideration of
the issues of damages and willfulness.
Although Time Warner argues that the
introduction of evidence of a jury verdict from another
case is invariably improper, that is not the rule that
this court has applied. Instead, the court has held that
such evidence can be admissible if it is relevant for
some legitimate purpose.
In Applied Medical Resources Corp. v. U.S.
Surgical Corp., 435 F.3d 1356 (Fed. Cir. 2006), this

App-5
court affirmed the admission of evidence regarding a
prior verdict between the parties on the ground that
the evidence of that verdict was relevant to the
hypothetical negotiation between the same parties,
which bore on the amount of the damages to be
awarded under a reasonable royalty theory of
damages, as well as the issue of willfulness. Id. at
1365-66. As to the relevance of the prior verdict on the
issue of damages, the court held that the verdict “was
relevant to the reasonable royalty analysis because
the hypothetical negotiation in 1997 took place on the
heels of the [prior] jury verdict.” Id. at 1366. The court
added that the appellant failed to show that the
probative value of the evidence was outweighed by the
danger of unfair prejudice. Id.
The Applied Medical Resources case applied a
flexible approach to the admission of evidence of prior
verdicts or other proceedings. 1 While such evidence
can be prejudicial and must be treated with great care,
it is admissible if it is relevant to a material issue in
the case and its use is limited to the purpose for which
it is relevant. See Mendenhall v. Cedarapids, Inc., 5
F.3d 1557, 1573-74 (Fed. Cir. 1993) (evidence of prior
litigation “must pass muster, like any other evidence,

1 In its effort to distinguish Applied Medical Resources, Time
Warner alludes to the fact that the earlier verdict in that case
was against the same defendant. But that factor would seem to
make the risk of prejudice stronger, not weaker, as the court
explained in Coleman Motor Co. v. Chrysler Corp., 525 F.2d 1338,
1351 (3d Cir. 1975), a case on which Time Warner heavily relies.

App-6
as relevant and probative of an issue in the second
case”). 2
In this case, the court admitted the prior verdict
evidence as relevant to willfulness, to Time Warner’s
equitable defenses, and “to the extent that it informs
Sprint’s executives concerning what [they] might
expect as a reasonable royalty.” Thus, as the court
explained, the verdict would be a factor of which the
parties would have been aware at the time of their
hypothetical negotiation in 2010, and a reasonable
jury could well conclude that the verdict and the
amount of damages awarded in a similar prior
litigation would have influenced the outcome of a
hypothetical negotiation in the case at bar.
Importantly, the district court gave the jury
limiting instructions that the Vonage evidence was to
be considered only on the issues of damages and
willfulness. The court gave such an instruction at
Time Warner’s request both times evidence of the
While Time Warner cites several cases that have disapproved
of the admission of evidence regarding the outcome of earlier
cases, none of those cases is persuasive authority as applied to
the circumstances of this case. In Engquist v. Oregon Department
of Agriculture, 478 F.3d 985, 1008-09 (9th Cir. 2007), the court
held that the district court did not abuse its discretion by
excluding evidence of the outcome of a prior proceeding, while
noting that such evidence is admissible if it is relevant to an issue
in the later case and is not unfairly prejudicial. In Olitsky v.
Spencer Gifts, Inc., 964 F.2d 1471, 1475-76 (5th Cir. 1992), the
court held that the evidence of the outcome of prior litigation was
relevant and that any prejudice was cured by an appropriate
limiting instruction. Finally, as noted, in Coleman Motor Co., the
prior verdict was against the same defendant, and the court
observed that a jury “is likely to give a prior verdict against the
same defendant more weight than it warrants.” 525 F.2d at 1351.
2

App-7
Vonage verdict was introduced and in the court’s final
jury charge. While the court might have given an even
more restrictive instruction, no request was made for
such a further limitation on the instruction given to
the jury.
Time Warner argues that the differences between
the Vonage case and this case were such that the
district court should have excluded the Vonage
evidence on relevance grounds. We disagree. While
there are some differences between the two
proceedings, the core allegations in both were the
same. And while Time Warner argues that there were
several patents raised in each case that were not
raised in the other, Time Warner has not shown in its
briefs any reason to believe that the technology
asserted in the Vonage case was materially different
from the technology raised in this case. Any
differences between the two proceedings, moreover,
were available to Time Warner to argue to the jury;
the differences did not require exclusion of the Vonage
verdict.
As for Time Warner’s contention that Sprint’s
counsel made inflammatory use of the prior verdict
before the jury, we find that argument to be
overstated. The references to the jury verdict about
which Time Warner complains were made in the
context of a discussion of the hypothetical negotiation.
Several of the references were made in Sprint’s
opening statement. No objection was raised to those
remarks as exceeding the limited grounds on which
the district court permitted the Vonage evidence to be
used. In closing argument, Sprint’s counsel again
referred to the Vonage verdict as it bore on the

App-8
hypothetical negotiation issue and on the issue of
willfulness, as the district court had permitted.
Having examined each of counsel’s references to the
prior verdict, as well as the evidence regarding the
Vonage verdict that was introduced at trial, we are
satisfied that counsel did not make improper or
inflammatory use of the Vonage evidence, and that the
district court did not commit reversible error in failing
to strike that evidence or prohibit it from being offered
for any purpose.
B. The Damages Award
The jury assessed damages against Time Warner
in the amount of $1.37 per VoIP subscriber per month.
Time Warner complains that the district court erred
in several respects in handling the issue of damages.
First, Time Warner contends that, for the same
reasons that Time Warner objected to the admission
of evidence of the Vonage verdict, the damages award
should be overturned because Sprint’s damages expert
relied on that verdict in calculating a reasonable
royalty.
In addition to the previously raised objections to
the admission of evidence of the Vonage verdict, Time
Warner argues that the use of the Vonage verdict in
the expert’s damages calculation was improper
because the Vonage verdict was legally flawed. Time
Warner argues that Sprint’s expert in the Vonage case
improperly relied in part on the 25 percent “rule of
thumb” that was frequently used in reasonable royalty
cases prior to this court’s decision in Uniloc USA, Inc.
v. Microsoft Corp., 632 F.3d 1292, 1315 (Fed. Cir.
2011), which held that “the 25 percent rule of thumb

App-9
is a fundamentally flawed tool,” and that the Vonage
verdict was therefore tainted.
We have already addressed and rejected Time
Warner’s arguments regarding the impropriety of
admitting evidence of the Vonage verdict. As for Time
Warner’s argument that the Vonage verdict was
tainted by the testimony in that case regarding the 25
percent rule, Sprint’s expert made clear that he was
not relying on that rule in this case, and the jury in
the Vonage case did not return a verdict that was
based on the 25 percent rule as the measure of
damages.
Both parties’ experts explained that the 25
percent rule of thumb had been rejected by economists
and courts. And Time Warner cross-examined Sprint’s
damages expert at length about the 25 percent rule in
an effort to demonstrate that the Vonage verdict was
tainted by the 25 percent rule and was therefore
unreliable. In effect, Time Warner is now arguing that
the references to the 25 percent rule in the Vonage
case made the verdict in that case per se inadmissible.
We disagree. Time Warner had ample opportunity at
trial to challenge the reliability of the Vonage verdict
on that ground. We conclude that Time Warner has
failed to show that the references to the 25 percent
rule in the Vonage case had such a demonstrable and
substantial effect on that case’s verdict as to disqualify
the Vonage evidence from consideration by the jury in
determining an appropriate damages award in this
case.
Time Warner next argues that the Vonage verdict
should not have been admitted because the jury in
that case awarded a royalty based on all of Vonage’s

App-10
VoIP revenues, without determining which portions of
the revenues were attributed to patented technology
as opposed to unpatented features. But the fact that
the jury in the Vonage case awarded a royalty based
on total VoIP revenues does not make that verdict
inadmissible; the jury in that case was called on to
make a determination as to the appropriate royalty for
the patented technology—the same technology at
issue in this case—and it did so in the form of a lump
sum royalty award. The reasonable royalty award in
the Vonage case was based on the jury’s determination
of the value of the technology that was taken as a
result of Vonage’s infringement. By operation of the
hypothetical negotiation method of calculating
damages, the award compensated Sprint for the
incremental value of Sprint’s technology, not for the
value of unpatented features of Vonage’s VoIP system.
The evidence showed that the damages award in
the Vonage case of $1.37 per subscriber per month was
approximately five percent of Vonage’s total VoIP
revenues for the infringement period. The jury settled
on the same amount for the damages award in this
case as in the Vonage case. The Vonage verdict did not
stand alone, however. In addition to the Vonage
verdict, the jury had before it two licenses from Sprint
to other communications companies for the patented
technology, both of which were for approximately five
percent of the companies’ VoIP revenue. The evidence
showed that those licenses, like the Vonage verdict,
were based on the value of the patented technology
and not the value of other aspects of the companies’

App-11
VoIP technology that were not covered by Sprint’s
patents. 3
Time Warner argues that Sprint’s damages case
was flawed because Sprint did not apportion the
damages award to the incremental value that the
patented invention added to the end product. See
Ericsson, Inc. v. D-Link Sys., Inc., 773 F.3d 1201, 1226
(Fed. Cir. 2014). That argument, however, ignores
that the objective of apportionment can be achieved in
different ways, one of which is through the jury’s
determination of an appropriate royalty by applying
the so-called Georgia-Pacific factors, under proper
instructions embodying apportionment principles. See
Exmark Mfg. Co. v. Briggs & Stratton Power Grp.,
LLC, 879 F.3d 1332, 1349 (Fed. Cir. 2018) (“[T]he
standard Georgia-Pacific reasonable royalty analysis
takes account of the importance of the inventive
contribution in determining the royalty rate that
would have emerged from the hypothetical
negotiation.” (quoting AstraZeneca AB v. Apotex Corp.,
782 F.3d 1324, 1338 (Fed. Cir. 2015))); Ericsson, 773
F.3d at 1228 n.5 (“While factors 9 and 13 of the
Georgia-Pacific factors allude to apportionment
concepts, we believe a separate instruction culled from

Time Warner contends that each of the other two licenses
“covers more than the patents Sprint asserts here,” Reply Br. 20,
but the testimony from Sprint’s expert indicates that those two
licenses were for the “same technology” for the “same patents-insuit” as in the present case. As in the case of the Vonage verdict,
while those agreements covered numerous patents, Time Warner
has not shown that the additional patents included technology
materially different from the technology covered by the patentsin-suit in this case.
3

App-12
Garretson [v. Clark, 111 U.S. 120 (1884)] would be
preferable in future cases.”).
Such an analysis often considers rates from
comparable licenses, and we have explained that
“otherwise comparable licenses are not inadmissible
solely because they express the royalty rate as a
percentage of total revenues, rather than in terms of
the smallest salable unit.” Commonwealth Sci. &
Indus. Research Org. v. Cisco Sys., Inc., 809 F.3d 1295,
1303 (Fed. Cir. 2015). The fact that two other licenses
were granted for the same technology, together with
the Vonage verdict—all of which were for the same
royalty rate as the rate utilized in the Vonage case to
yield the $1.37 per VoIP subscriber per month
damages assessment—provides strong support for
Sprint’s argument that the damages award in this
case reflected the incremental value of the inventions
and thus satisfied the requirement of apportionment.
See Ericsson, 773 F.3d at 1227-28 (damages testimony
regarding real-world relevant licenses “takes into
account the very types of apportionment principles
contemplated in Garretson.”).
Contrary to Time Warner’s contention, the jury’s
damages award was based on the value of what was
taken from Sprint, not the value of unpatented
features of Time Warner’s VoIP system. Sprint’s
damages expert addressed apportionment at some
length during his testimony, explaining that his
damages calculations were designed to determine “the
incremental profits that are attributable to the
patents in suit.” And the jury was specifically
instructed on apportionment. The court directed that
the reasonable royalty “must be based on the

App-13
incremental value that the patented invention adds to
the end product. When the infringing products have
both patented and unpatented features, measuring
this value requires a determination of the value added
by the patented features.” Time Warner did not
propose alternative instructions on damages, so the
issue is simply whether the evidence was sufficient to
support the jury’s award. In light of the Vonage verdict
and the other two licenses, as well as testimony from
Sprint’s expert as to the cost to Sprint and the benefit
to Time Warner from Time Warner’s decision to
operate the VoIP system itself rather than contracting
that work out to Sprint, the jury had an adequate
basis from which to find that damages should be
awarded in the amount of $1.37 per VoIP subscriber
per month.
Finally, Sprint introduced evidence from which
the jury could conclude that Time Warner did not have
available to it any reasonable non-infringing
alternatives to Sprint’s patented technology for
connecting PSTN networks to IP networks. That
factor also bears on the amount of the royalty that a
jury could find would emerge from a hypothetical
negotiation, as the absence of non-infringing
alternatives would strengthen the patentee’s hand in
such a negotiation. See Carnegie Mellon Univ. v.
Marvell Tech. Grp., Ltd., 807 F.3d 1283, 1304 (Fed.
Cir. 2005) (The hypothetical negotiation seeks to
determine “what it would have been worth to the
defendant, as it saw things at the time, to obtain the
authority to use the patented technology, considering
the benefits it would expect to receive from using the
technology and the alternatives it might have
pursued.”). In light of all the evidence bearing on the

App-14
damages award, we conclude that the jury’s verdict
was supported by sufficient evidence and did not
contravene the principles of apportionment set forth
by this court.
C. The Written Description Requirement
Time Warner next argues that both the call
control patents and the broadband patents were
shown to be invalid for failure to satisfy the written
description requirement set forth in 35 U.S.C. § 112,
¶ 1 (now 35 U.S.C. § 112(1)). In particular, Time
Warner contends that the specifications of each group
of patents describe the invention as a method of
transmitting signals between a PSTN network and a
packet-switched system that employed Asynchronous
Transfer Mode (“ATM”) technology, which used
virtual circuits. The specifications, Time Warner
argues, do not describe the invention as including the
transmission of signals from a PSTN network to a
packet-switched network using IP technology.
According to Time Warner, the references to
“broadband” and “packet” in the specifications disclose
only ATM systems and not IP systems.
Compliance with the written description
requirement presents a question of fact. Ariad
Pharms., Inc. v. Eli Lily & Co., 598 F.3d 1336, 1355
(Fed. Cir. 2010) (en banc). The written description
issue was submitted to the jury on instructions that
are not objected to on appeal. Through its verdict, the
jury found that the written description requirement
was satisfied with respect to both the call control
patents and the broadband patents. As to both sets of
patents, the issue is therefore whether the evidence at
trial was sufficient to satisfy the written description

App-15
requirement. Because the common specifications for
each of the two sets of patents differ significantly, we
treat the two invalidity arguments separately.
1.

The Call Control Patents

Time Warner acknowledges that the claims of the
call control patents cover both ATM and IP
communication technology. However, Time Warner
contends that the common specification of the call
control patents is confined to ATM technology, and
that the claims of the call control patents are invalid
because, as applied to IP technology, they are not
supported by the specification. Sprint responds that
the specification is not confined to ATM technology,
but is broad enough to cover IP technology as well.
IP technology is not expressly excluded from the
call control specification. Instead, the specification
refers to “[b]roadband systems, such as Asynchronous
Transfer Mode (ATM),” ’561 patent, col. 2, ll. 28-30, a
formulation that strongly suggests that the patents
are not limited to ATM technology. The specification
adds that the network on which the invention operates
“could be any type of telecommunications network
that operates using network elements, signaling, and
connections.” Id., col. 8, ll. 38-43. Importantly, the call
control patents disclose means for routing
communications between a point on a narrowband
network, such as the PSTN, and a point on a
broadband network, without specifying whether the
point on the broadband network is part of a fixed endto-end path for a single call (as in an ATM-based
system) or part of a path that is established on a
packet-by-packet basis by each separate router (as in

App-16
an IP-based system). See ’561 patent, col. 3, ll. 10-20;
id., col. 9, line 62, through col. 10, line 39.
Sprint’s technical expert, Dr. Stephen Wicker,
testified that a person of skill in the art at the time of
the application would have understood the use of the
term “broadband” to include IP as well as ATM
technology. He testified that such a person, reading
the common specification of the call control patents,
would conclude that the inventor “was clearly
thinking about broadband technologies that used
routing to individual elements like IP addresses or
used connections as in ATM.” Dr. Wicker pointed out,
for example, that the call control patents state that the
communication control processor in the system
“processes the signaling and selects at least one
network characteristic in response to the signaling.
Network characteristics might be network elements,
connections, network codes, applications, or control
instructions to name a few examples.” ’561 patent, col.
6, ll. 12-16.
Dr. Wicker explained that the reference to
“connections” was a reference to ATM technology,
while the reference to “network elements” would
encompass IP technology. Those references, according
to Dr. Wicker, showed that the call control patents
were directed to “something more general in the world
of broadband networks than just ATM.”
Dr. Wicker focused on the passage from the call
control patents’ specification that notes that in one
embodiment the “selection of a network characteristic
will include the selection of a network code,” and that
“network codes are the logical addresses of network
elements.” Id., col. 12, ll. 47-56. That passage, he

App-17
testified, indicates that the specification contemplated
the use of IP technology in addition to ATM
technology, since IP addresses are the logical
addresses of network elements.
Dr. Wicker also pointed to a passage in the call
control specification providing that the call control
processor may select only network elements and not
the connections, and that the elements would select
the connections to use. Id., col. 6, line 62, through col.
7, line 9; see also id., col. 7, ll. 22-24 (“The [call control
processor] might select all the network elements, a
portion of the network elements, or none of the
network elements leaving the switches to select the
remainder.”); id., col. 15, ll. 32-34. Based on the
specification, Dr. Wicker inferred that the inventor
was referring to “broadband technologies that used
routing to individual elements like IP addresses or
used connections as in ATM. He’s looking at both.” In
light of the evidence before the jury on the issue, we
cannot conclude that Time Warner has shown by clear
and convincing evidence that the call control
specification lacks an adequate written description to
support the asserted claims.
2.

The Broadband Patents

The common specification of the broadband
patents incorporates the specification of the call
control patents by reference. For the reasons
explained with respect to the call control patents, the
written description in the broadband patents
therefore includes IP technology as well as ATM
technology. That is so even though the broadband
specification itself is principally focused on the

App-18
operation of the invention within ATM communication
systems.
In addition to noting that the broadband patents
incorporate the specification of the call control
patents, Dr. Wicker pointed to particular portions of
the broadband specification to support his opinion
that the broadband specification was not limited to
ATM technology with regard to its discussion of the
“identifier,”
“routing,”
and
“asynchronous
communication” elements. As for the identifier, Dr.
Wicker testified that a person of ordinary skill reading
the broadband specification would have concluded
that the identifier “could be like an IP address
pointing to a destination, it could be like a VPI/VCI
pair pointing to a virtual connection. [It is] more
general than just saying ATM.” The identifier, he
concluded, “could cover any broadband identifier,”
including an IP address. As for “routing,” Dr. Wicker
testified that routing refers to moving packets toward
their destination, with “no limitation on how that’s
done. . . . [T]he route or routing could be any
broadband routing including IP.” As for asynchronous
communication, Dr. Wicker testified that a person of
skill in the art would understand that term, as used in
the broadband specification, “to be more general than
just a particular technology. They would understand
it in the context of the patents to be a broadband
packet switching technology but nothing more
specific.” In summary, Dr. Wicker concluded that the
broadband specification was not limited to a “fixed
path” communication system, such as ATM.
We are not persuaded by Time Warner’s
argument that the district court’s construction of the

App-19
phrase “interworking unit” renders the broadband
patent claims invalid. The district court construed
“interworking unit,” which appears in all asserted
claims of the broadband patents, to mean an “ATM
interworking multiplexer.” Time Warner argues that
because other claim elements, discussed in the
paragraph above, are broad enough to encompass
technologies other than ATM that are “incongruous
with the claimed ATM interworking multiplexer,” the
claims lack written description support. However,
Sprint’s expert testified, with a reference to technical
literature, that ATM and IP are actually interoperable
such that IP datagrams can be transmitted over ATM.
Time Warner’s expert agreed that it was technically
possible to run IP over an ATM network. Based on this
testimony, a reasonable jury could reject Time
Warner’s argument that it would be “nonsensical” to
use IP with an “ATM interworking multiplexer.”
Although the broadband patents focus on ATM
technology, we cannot agree, in light of the record at
trial, that Time Warner has met its burden of showing
by clear and convincing evidence that the common
specification of the broadband patents lacks an
adequate written description of claimed subject
matter in those patents.
D. Infringement Of The Broadband Patents
Under The Doctrine Of Equivalents
Time Warner’s final argument is that the
evidence was insufficient to support the jury’s verdict
that the broadband patents were infringed under the
doctrine of equivalents. The district court construed
the term “interworking unit” in the broadband patents

App-20
to mean an “ATM interworking multiplexer.” 4
Presumably for that reason, the jury found that none
of the claims of the broadband patents were directly
infringed. However, the jury found that those patents
were infringed under the doctrine of equivalents.
At trial, Sprint introduced evidence that Time
Warner’s MGX8880 media gateway, which uses an IP
card to convert data to IP packets, was
interchangeable with an ATM interworking
multiplexer, and therefore satisfied the “interworking
unit” limitation under the doctrine of equivalents. See
Warner-Jenkinson Co. v. Hilton Davis Chem. Co., 520
U.S. 17, 36 (1997) (“The known interchangeability of
substitutes for an element of a patent is one of the
express objective factors . . . bearing upon whether the
accused device is substantially the same as the
patented invention.”).
The evidence of interchangeability was sufficient
to sustain the jury’s verdict. Dr. Wicker testified that
the MGX8880 was designed with interchangeable
cards that allowed the medial gateway to handle
either ATM or IP packets. The fact that swapping
cards was possible and was contemplated by skilled
artisans supports the jury’s conclusion that the IPbased system was equivalent to the ATM-based
system for purposes of the doctrine of equivalents. See
Interactive Pictures Corp. v. Infinite Pictures, Inc., 274
F.3d 1371, 1383-84 (Fed. Cir. 2001).

4 On appeal, Time Warner does not challenge the trial court’s
construction of the broadband patent claims or the court’s
instructions on the doctrine of equivalents.

App-21
To be sure, the evidence showed that converting
Time Warner’s established network from IP to ATM
technology would have entailed substantial work and
expense. However, the fact that the choice of one of two
technologies would be expensive to reverse, once the
choice was made and resources were invested in that
choice, does not mean that the two competing choices
were not equivalent in the first instance. Sprint
introduced evidence that at the outset the choice
between ATM and IP technology, as related to the
invention set forth in the broadband patents, was
simply a design choice. That evidence supports the
jury’s verdict of equivalency.
In addition, Dr. Wicker testified at length
regarding how Time Warner’s IP system satisfied the
function-wayresult test for equivalency for each of the
asserted broadband claims. See Sofamor Danek Grp.,
Inc. v. DePuy- Motech, Inc., 74 F.3d 1216, 1221-22
(Fed. Cir. 1996). He explained that the MGX8880
performed the same function as the interworking unit
recited in the claims, that it did so in the same way as
the claimed unit, and that it achieved the same result.
Based on the evidence of equivalency adduced at
trial, we hold that Time Warner has failed to show
that the evidence was insufficient to support the jury’s
verdict.
AFFIRMED

App-22
MAYER, Circuit Judge, dissenting.
This case involves a remarkable mismatch
between the narrow patent disclosures and the
exceedingly broad claims. The patents asserted by
Sprint Communications Company, L.P. (“Sprint”) are
invalid as a matter of law because their specifications
provide no written description support for the full
breadth of the asserted claims. I therefore respectfully
dissent.
The specifications of Sprint’s patents describe
ways to address the problems that arise when trying
to connect Asynchronous Transfer Mode (“ATM”)
systems with the traditional Public Switched
Telephone Network (“PSTN”). J.A. 185-88; see also
J.A. 5166-69. The specifications do not mention
Internet Protocol (“IP”) communications or contain
any suggestion that methods of establishing
interconnections between IP networks and the PSTN
are within the scope of the claimed invention.
The common specification of Sprint’s Call Control
Patents, U.S. Patent Nos. 6,463,052 and 6,633,561,
describes a purportedly novel way of linking ATM
networks with the PSTN. It discusses establishing
fixed end-to-end communications paths for calls using
PSTN circuits and ATM virtual circuits. See, e.g., J.A.
185 (2:28-37), 187 (5:16-21), 190 (12:35-46). It further
discloses a “Communication Control Processor,” which
interfaces with the switches to set up a fixed end-toend path for a call. J.A. 187 (5:30), 190 (11:58-12:4);
see also J.A. 177-180.
Importantly, however, the specification contains
no disclosure of IP technology, which operates in a
fundamentally different way than ATM technology.

App-23
Unlike an ATM network, an IP network does not use
circuits or virtual circuits and does not set up a fixed
path for a call. See J.A. 3872-73, 4414-15. To the
contrary, each packet with data for a call is routed
using an identifier in the packet known as an “IP
address.” See J.A. 3872-73. As an expert for Time
Warner Cable, Inc. and related parties explained,
ATM is “like being on a train track where you have to
follow the tracks,” but IP is like “driving a car from
Point A to [Point] B, where you’re free to take different
roads.” J.A. 4827-28; see also J.A. 4413-15. The
common specification of the Call Control Patents does
not contain any disclosure of IP technology, which is
unsurprising given that it is directed to setting up
fixed end-to-end communications paths and IP routing
does not rely on such paths.
Sprint argues that its “Call Control Patents
disclose inventions for routing communications
between a point on a narrowband network and a point
on a broadband network, without regard for whether
the point in a broadband network is part of a fixed
path or is established on a call-by-call basis.” Br. of
Plaintiff-Appellee at 56. In support, it contends that
the common specification of the Call Control Patents
“describe[s] a flexible processing system that may
select ‘all,’ ‘a portion,’ or ‘none’ of the network
elements, as well as ‘all,’ ‘a portion,’ or ‘none’ of the
connections, in performing the steps of the claims.” Id.
(quoting J.A. 188 (7:22-29)). In essence, Sprint argues
that the specification does not require the selection of
all of the network elements and connections in a
communications path. This argument fails. The
common specification makes clear that the
Communication Control Processor and the switches

App-24
will function together to select all of the network
elements and connections. See J.A. 188 (7:20-29) (“One
skilled in the art will recognize that the selection
process can be distributed among the [Communication
Control Processor] and the elements. The
[Communication Control Processor] might select all
the network elements, a portion of the network
elements, or none of the network elements leaving the
switches to select the remainder.” (emphasis added)).
Over and over again, the specification refers to
establishing a communications path. See, e.g., J.A. 185
(1:37-46), 186 (3:15-18), 190 (11:35-36). It contains
nothing even arguably suggesting that a fixed
communications path will not be established, as would
be the case if the claimed invention encompassed IP
technology.
Like its Call Control Patents, Sprint’s Broadband
Patents, U.S. Patent Nos. 6,343,084, 6,473,429, and
6,298,064, lack written description support. The
purported invention described in the common
specification of the Broadband Patents is an
alternative technique for including both PSTN circuits
and virtual circuits in the same communications path.
See J.A. 303-05. The specification’s disclosure makes
sense only in the context of ATM technology. The
common specification does not disclose any packet
identifiers other than ATM VPI/VCI identifiers, any
routing other than ATM routing, or any form of
asynchronous communication other than ATM. See
J.A. 242-53. Importantly, moreover, all of the claims
of the Broadband Patents, as construed by the district
court, require an “ATM interworking multiplexer.”
J.A. 352-55. There is no dispute that an ATM
interworking multiplexer converts calls between

App-25
PSTN and ATM formats, allowing the two types of
networks to be bridged. J.A. 3689; see also J.A. 3863,
4485-86, 5280-81. Nothing in the common
specification suggests or even hints that converting to
and from IP or routing over an IP network is within
the scope of the claimed invention.
Sprint attempts to salvage the verdict of no
invalidity by arguing that the jury was entitled to rely
on the testimony of its expert, Dr. Steven Wicker, who
stated that the asserted patents met the written
description requirement. See J.A. 5638-43, 5647-50,
5670-76. This argument is unpersuasive. Wicker’s
statements were conclusory and unsupported by any
persuasive citation to the patent disclosures or other
record evidence. See, e.g., ActiveVideo Networks, Inc.
v. Verizon Commc’ns, Inc., 694 F.3d 1312, 1327 (Fed.
Cir. 2012) (declining to credit expert testimony that
“was conclusory and factually unsupported”).
Wicker argued that IP networks are within the
scope of the claimed invention because there are
technologies that can “force” an IP network to set up
and use a fixed communications path. See J.A. 573839, 5651-56. This argument is premised on a
misapprehension of the adequate written description
requirement. The salient question “is whether the
disclosure . . . reasonably conveys to those skilled in
the art that the inventor had possession of the claimed
subject matter as of the filing date,” Ariad Pharm.,
Inc. v. Eli Lilly & Co., 598 F.3d 1336, 1351 (Fed. Cir.
2010) (en banc), not whether an undisclosed
technology can be “forced” to operate within the
disclosed system. See Lockwood v. Am. Airlines, Inc.,
107 F.3d 1565, 1572 (Fed. Cir. 1997) (“It is not

App-26
sufficient for purposes of the written description
requirement of § 112 that the disclosure, when
combined with the knowledge in the art, would lead
one to speculate as to [the] modifications that the
inventor might have envisioned, but failed to
disclose.”).
“[T]he purpose of the written description
requirement is to ensure that the scope of the right to
exclude, as set forth in the claims, does not overreach
the scope of the inventor’s contribution to the field of
art as described in the patent specification.” Ariad,
598 F.3d at 1353-54 (citations and internal quotation
marks omitted). Sprint overreaches here. It seeks
broad monopoly rights over interconnections between
narrowband and broadband networks. Nothing in the
patent specifications, however, is sufficient to sweep
non-path technologies like IP within the scope of the
claimed invention. See Gentry Gallery, Inc. v. Berkline
Corp., 134 F.3d 1473, 1480 (Fed. Cir. 1998) (explaining
that “claims may be no broader than the supporting
disclosure”). I would reverse.

App-27
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 17-2247
________________
SPRINT COMMUNICATIONS COMPANY, L.P.,
v.

Plaintiff-Appellee,

TIME WARNER CABLE, INC., TIME WARNER
CABLE, LLC, TIME WARNER ENTERTAINMENT CO., L.P.,
TIME WARNER ENTERTAINMENT-ADVANCE/NEWHOUSE
PARTNERSHIP, TWC COMMUNICATIONS, LLC,
TIME WARNER CABLE INFORMATION
SERVICES (KANSAS), LLC,
Defendants-Appellants.
________________
Decided: Nov. 30, 2018
________________
Before Chen, Mayer, and Bryson, Circuit Judges.
________________
OPINION
________________
BRYSON, Circuit Judge.
This patent infringement case was brought by
Sprint Communications Company, L.P. (“Sprint”)
against Time Warner Cable, Inc., and several of its
affiliates (collectively, “Time Warner”) in the United
States District Court for the District of Kansas. Sprint

App-28
is the owner of the five patents-in-suit: U.S. Patent
Nos. 6,298,064 (“the ’064 patent”); 6,343,084 (“the ’084
patent”); 6,463,052 (“the ’052 patent”); 6,473,429 (“the
’429 patent”); and 6,633,561 (“the ’561 patent”).
Following trial, the jury found all five patents
infringed and returned a verdict of approximately
$140 million in Sprint’s favor. We affirm.
I
The technology at issue in this case involves
methods for linking circuit-switched and packetswitched networks within a telecommunications
system. The invention at the heart of the patents in
suit is a method for using a packet-switched network
to transport telephone calls and data to and from the
existing circuit-switched network for telephone
communications known as the Public Switched
Telephone Network (“PSTN”). The inventions allowed
telephone calls and data to be transmitted between
those two different networks seamlessly.
The traditional PSTN used circuit switching to set
up an end-to-end path for each call. In a circuitswitched network, a user’s telephone connects to a
switch, and the switch determines, based on the dialed
number, which switch will be selected as the next
switch in the path. That process continues switch-byswitch until the switch that is connected to the called
party is reached. The signaling between the switches
establishes a fixed circuit for the entire call, and the
call occupies the entire bandwidth of that circuit for
the duration of the call.
The traditional circuit-switched technology works
well for voice communications, but less well for data
communication. Because data communication tends to

App-29
come in bursts rather than as a continuous
transmission of information, the use of a fixed circuit
for data transmission can be wasteful of bandwidth
during periods in which data is not being transmitted
but the circuit remains active. Accordingly,
communications companies developed packet-based
solutions to increase the efficiency of data
communications. Two types of packet-based
technology that are pertinent to this case emerged:
(1) asynchronous transfer mode technology (“ATM”),
which used “virtual circuits” that established fixed
routes for communications but enabled multiple users
to share the circuits at the same time; and (2) internet
protocol (“IP”) technology, in which each IP router in
an IP network would make an individual routing
decision for each packet based on the ultimate
destination of the packet. In the IP system, individual
packets that are part of a single communication can
travel different paths to the same destination.
The patents at issue in this case fall into two
groups: the “call control” patents (the ’052 and ’561
patents) and the “broadband” patents (the ’064, ’084,
and ’429 patents). The call control patents describe
methods for telecommunication control of calls to and
from the packet-switched communication network.
The broadband patents address the interface between
circuit-switched (or “narrowband”) networks and
packet-switched (or “broadband”) networks. Sprint
accused Time Warner of infringing the call control and
broadband patents by using a Voice over Internet
Protocol (“VoIP”) service, which converted calls into
packet data, transmitted the call over an IP network,
and provided for connectivity to the PSTN.

App-30
II
A. The Admission Of The Vonage Verdict
Time Warner’s first contention on appeal is that
the district court improperly permitted Sprint to
introduce evidence relating to the jury verdict in an
earlier, related case brought by Sprint against
Vonage, another carrier offering VoIP service. That
case involved the same technology that was at issue in
this case and resulted in a damages award against
Vonage. Time Warner contends that the admission of
the evidence relating to the Vonage verdict prejudiced
it and requires that it be granted a new trial.
The district court ruled that the Vonage evidence
was relevant to the jury’s assessment of reasonable
royalty damages under a hypothetical negotiation
theory. The court gave the jury an instruction limiting
the use of that evidence to the jury’s consideration of
the issues of damages and willfulness.
Although Time Warner argues that the
introduction of evidence of a jury verdict from another
case is invariably improper, that is not the rule that
this court has applied. Instead, the court has held that
such evidence can be admissible if it is relevant for
some legitimate purpose.
In Applied Medical Resources Corp. v. U.S.
Surgical Corp., 435 F.3d 1356 (Fed. Cir. 2006), this
court affirmed the admission of evidence regarding a
prior verdict between the parties on the ground that
the evidence of that verdict was relevant to the
hypothetical negotiation between the same parties,
which bore on the amount of the damages to be
awarded under a reasonable royalty theory of
damages, as well as the issue of willfulness. Id. at

App-31
1365-66. As to the relevance of the prior verdict on the
issue of damages, the court held that the verdict “was
relevant to the reasonable royalty analysis because
the hypothetical negotiation in 1997 took place on the
heels of the [prior] jury verdict.” Id. at 1366. The court
added that the appellant failed to show that the
probative value of the evidence was outweighed by the
danger of unfair prejudice. Id.
The Applied Medical Resources case applied a
flexible approach to the admission of evidence of prior
verdicts or other proceedings. 1 While such evidence
can be prejudicial and must be treated with great care,
it is admissible if it is relevant to a material issue in
the case and its use is limited to the purpose for which
it is relevant, see Mendenhall v. Cedarapids, Inc., 5
F.3d 1557, 1573-74 (Fed. Cir. 1993) (evidence of prior
litigation “must pass muster, like any other evidence,
as relevant and probative of an issue in the second
case”). 2
In its effort to distinguish Applied Medical Resources, Time
Warner alludes to the fact that the earlier verdict in that case
was against the same defendant. But that factor would seem to
make the risk of prejudice stronger, not weaker, as the court
explained in Coleman Motor Co. v. Chrysler Corp., 525 F.2d 1338,
1351 (3d Cir. 1975), a case on which Time Warner heavily relies.
1

While Time Warner cites several cases that have disapproved
of the admission of evidence regarding the outcome of earlier
cases, none of those cases is persuasive authority as applied to
the circumstances of this case. In Engquist v. Oregon Department
of Agriculture, 478 F.3d 985, 1008-09 (9th Cir. 2007), the court
held that the district court did not abuse its discretion by
excluding evidence of the outcome of a prior proceeding, while
noting that such evidence is admissible if it is relevant to an issue
in the later case and is not unfairly prejudicial. In Olitsky v.
Spencer Gifts, Inc., 964 F.2d 1471, 1475-76 (5th Cir. 1992), the
2

App-32
In this case, the court admitted the prior verdict
evidence as relevant to willfulness, to Time Warner’s
equitable defenses, and “to the extent that it informs
Sprint’s executives concerning what [they] might
expect as a reasonable royalty.” Thus, as the court
explained, the verdict would be a factor of which the
parties would have been aware at the time of their
hypothetical negotiation in 2010, and a reasonable
jury could well conclude that the verdict and the
amount of damages awarded in a similar prior
litigation would have influenced the outcome of a
hypothetical negotiation in the case at bar.
Importantly, the district court gave the jury
limiting instructions that the Vonage evidence was to
be considered only on the issues of damages and
willfulness. The court gave such an instruction at
Time Warner’s request both times evidence of the
Vonage verdict was introduced and in the court’s final
jury charge. While the court might have given an even
more restrictive instruction, no request was made for
such a further limitation on the instruction given to
the jury.
Time Warner argues that the differences between
the Vonage case and this case were such that the
district court should have excluded the Vonage
evidence on relevance grounds. We disagree. While
there are some differences between the two
court held that the evidence of the outcome of prior litigation was
relevant and that any prejudice was cured by an appropriate
limiting instruction. Finally, as noted, in Coleman Motor Co., the
prior verdict was against the same defendant, and the court
observed that a jury “is likely to give a prior verdict against the
same defendant more weight than it warrants.” 525 F.2d at 1351.

App-33
proceedings, the core allegations in both were the
same. And while Time Warner argues that there were
several patents raised in each case that were not
raised in the other, Time Warner has not shown in its
briefs any reason to believe that the technology
asserted in the Vonage case was materially different
from the technology raised in this case. Any
differences between the two proceedings, moreover,
were available to Time Warner to argue to the jury;
the differences did not require exclusion of the Vonage
verdict.
As for Time Warner’s contention that Sprint’s
counsel made inflammatory use of the prior verdict
before the jury, we find that argument to be
overstated. The references to the jury verdict about
which Time Warner complains were made in the
context of a discussion of the hypothetical negotiation.
Several of the references were made in Sprint’s
opening statement. No objection was raised to those
remarks as exceeding the limited grounds on which
the district court permitted the Vonage evidence to be
used. In closing argument, Sprint’s counsel again
referred to the Vonage verdict as it bore on the
hypothetical negotiation issue and on the issue of
willfulness, as the district court had permitted.
Having examined each of counsel’s references to the
prior verdict, as well as the evidence regarding the
Vonage verdict that was introduced at trial, we are
satisfied that counsel did not make improper or
inflammatory use of the Vonage evidence, and that the
district court did not commit reversible error in failing
to strike that evidence or prohibit it from being offered
for any purpose.

App-34
B. The Damages Award
The jury assessed damages against Time Warner
in the amount of $1.37 per VoIP subscriber per month.
Time Warner complains that the district court erred
in several respects in handling the issue of damages.
First, Time Warner contends that, for the same
reasons that Time Warner objected to the admission
of evidence of the Vonage verdict, the damages award
should be overturned because Sprint’s damages expert
relied on that verdict in calculating a reasonable
royalty.
In addition to the previously raised objections to
the admission of evidence of the Vonage verdict, Time
Warner argues that the use of the Vonage verdict in
the expert’s damages calculation was improper
because the Vonage verdict was legally flawed. Time
Warner argues that Sprint’s expert in the Vonage case
improperly relied in part on the 25 percent “rule of
thumb” that was frequently used in reasonable royalty
cases prior to this court’s decision in Uniloc USA, Inc.
v. Microsoft Corp., 632 F.3d 1292, 1315 (Fed. Cir.
2011), which held that “the 25 percent rule of thumb
is a fundamentally flawed tool,” and that the Vonage
verdict was therefore tainted.
We have already addressed and rejected Time
Warner’s arguments regarding the impropriety of
admitting evidence of the Vonage verdict. As for Time
Warner’s argument that the Vonage verdict was
tainted by the testimony in that case regarding the 25
percent rule, Sprint’s expert made clear that he was
not relying on that rule in this case, and the jury in
the Vonage case did not return a verdict that was

App-35
based on the 25 percent rule as the measure of
damages.
Both parties’ experts explained that the 25
percent rule of thumb had been rejected by economists
and courts. And Time Warner cross-examined Sprint’s
damages expert at length about the 25 percent rule in
an effort to demonstrate that the Vonage verdict was
tainted by the 25 percent rule and was therefore
unreliable. In effect, Time Warner is now arguing that
the references to the 25 percent rule in the Vonage
case made the verdict in that case per se inadmissible.
We disagree. Time Warner had ample opportunity at
trial to challenge the reliability of the Vonage verdict
on that ground. We conclude that Time Warner has
failed to show that the references to the 25 percent
rule in the Vonage case had such a demonstrable and
substantial effect on that case’s verdict as to disqualify
the Vonage evidence from consideration by the jury in
determining an appropriate damages award in this
case.
Time Warner next argues that the Vonage verdict
should not have been admitted because the jury in
that case awarded a royalty based on all of Vonage’s
VoIP revenues, without determining which portions of
the revenues were attributed to patented technology
as opposed to unpatented features. But the fact that
the jury in the Vonage case awarded a royalty based
on total VoIP revenues does not make that verdict
inadmissible; the jury in that case was called on to
make a determination as to the appropriate royalty for
the patented technology—the same technology at
issue in this case—and it did so in the form of a lump
sum royalty award. The reasonable royalty award in

App-36
the Vonage case was based on the jury’s determination
of the value of the technology that was taken as a
result of Vonage’s infringement. By operation of the
hypothetical negotiation method of calculating
damages, the award compensated Sprint for the
incremental value of Sprint’s technology, not for the
value of unpatented features of Vonage’s VoIP system.
The evidence showed that the damages award in
the Vonage case of $1.37 per subscriber per month was
approximately five percent of Vonage’s total VoIP
revenues for the infringement period. The jury settled
on the same amount for the damages award in this
case as in the Vonage case. The Vonage verdict did not
stand alone, however. In addition to the Vonage
verdict, the jury had before it two licenses from Sprint
to other communications companies for the patented
technology, both of which were for approximately five
percent of the companies’ VoIP revenue. The evidence
showed that those licenses, like the Vonage verdict,
were based on the value of the patented technology
and not the value of other aspects of the companies’
VoIP technology that were not covered by Sprint’s
patents. 3
Time Warner argues that Sprint’s damages case
was flawed because Sprint did not apportion the
Time Warner contends that each of the other two licenses
“covers more than the patents Sprint asserts here,” Reply Br. 20,
but the testimony from Sprint’s expert indicates that those two
licenses were for the “same technology” for the “same patents-insuit” as in the present case. As in the case of the Vonage verdict,
while those agreements covered numerous patents, Time Warner
has not shown that the additional patents included technology
materially different from the technology covered by the patentsin-suit in this case.
3

App-37
damages award to the incremental value that the
patented invention added to the end product. See
Ericsson, Inc. v. D-Link Sys., Inc., 773 F.3d 1201, 1226
(Fed. Cir. 2014). That argument, however, ignores
that the objective of apportionment can be achieved in
different ways, one of which is through the
determination of an appropriate royalty by application
of the so-called Georgia-Pacific factors. See Exmark
Mfg. Co. v. Briggs & Stratton Power Grp., LLC, 879
F.3d 1332, 1349 (Fed. Cir. 2018) (“[T]he standard
Georgia-Pacific reasonable royalty analysis takes
account of the importance of the inventive
contribution in determining the royalty rate that
would have emerged from the hypothetical
negotiation.”) (quoting AstraZeneca AB v. Apotex
Corp., 782 F.3d 1324, 1338 (Fed. Cir. 2015)). Such an
analysis often considers rates from comparable
licenses, and we have explained that “otherwise
comparable licenses are not inadmissible solely
because they express the royalty rate as a percentage
of total revenues, rather than in terms of the smallest
salable unit.” Commonwealth Sc. & Indus. Research
Organisation v. Cisco Sys., Inc., 809 F.3d 1295, 1303
(Fed. Cir. 2015). The fact that two other licenses were
granted for the same technology, together with the
Vonage verdict—all of which were for the same royalty
rate as the rate utilized in the Vonage case to yield the
$1.37 per VoIP subscriber per month damages
assessment—provides strong support for Sprint’s
argument that the damages award in this case
reflected the incremental value of the inventions and
thus satisfied the requirement of apportionment. See
Ericsson, 773 F.3d at 1227-28 (damages testimony
regarding real-world relevant licenses “takes into

App-38
account the very types of apportionment principles
contemplated in Garretson [v. Clark, 111 U.S. 120
(1884)]).”
Contrary to Time Warner’s contention, the
evidence indicates that the jury’s damages award was
based on the value of what was taken from Sprint, not
the value of unpatented features of Time Warner’s
VoIP system. Time Warner did not propose alternative
jury instructions on the issue of damages, so the issue
is simply whether the evidence was sufficient to
support the jury’s award. In light of the Vonage verdict
and the other two licenses, as well as testimony from
Sprint’s expert as to the cost to Sprint and the benefit
to Time Warner from Time Warner’s decision to
operate the VoIP system itself rather than contracting
that work out to Sprint, the jury had an adequate
basis from which to find that damages should be
awarded in the amount of $1.37 per VoIP subscriber
per month.
Finally, Sprint introduced evidence from which
the jury could conclude that Time Warner did not have
available to it any reasonable non-infringing
alternatives to Sprint’s patented technology for
connecting PSTN networks to IP networks. That
factor also bears on the amount of the royalty that a
jury could find would emerge from a hypothetical
negotiation, as the absence of non-infringing
alternatives would strengthen the patentee’s hand in
such a negotiation. See Carnegie Mellon Univ. v.
Marvell Tech. Grp., Ltd., 807 F.3d 1283, 1304 (Fed.
Cir. 2005) (The hypothetical negotiation seeks to
determine “what it would have been worth to the
defendant, as it saw things at the time, to obtain the

App-39
authority to use the patented technology, considering
the benefits it would expect to receive from using the
technology and the alternatives it might have
pursued.”). In light of all the evidence bearing on the
damages award, we conclude that the jury’s verdict
was supported by sufficient evidence and did not
contravene the principles of apportionment set forth
by this court.
C. The Written Description Requirement
Time Warner next argues that both the call
control patents and the broadband patents were
shown to be invalid for failure to satisfy the written
description requirement set forth in 35 U.S.C. § 112,
¶ 1 (now 35 U.S.C. § 112(1)). In particular, Time
Warner contends that the specifications of each group
of patents describe the invention as a method of
transmitting signals between a PSTN network and a
packet-switched system that employed Asynchronous
Transfer Mode (“ATM”) technology, which used
virtual circuits. The specifications, Time Warner
argues, do not describe the invention as including the
transmission of signals from a PSTN network to a
packet-switched network using IP technology.
According to Time Warner, the references to
“broadband” and “packet” in the specifications disclose
only ATM systems and not IP systems.
Compliance with the written description
requirement presents a question of fact. Ariad
Pharms., Inc. v. Eli Lily & Co., 598 F.3d 1336, 1355
(Fed. Cir. 2010) (en banc). The written description
issue was submitted to the jury on instructions that
are not objected to on appeal. Through its verdict, the
jury found that the written description requirement

App-40
was satisfied with respect to both the call control
patents and the broadband patents. As to both sets of
patents, the issue is therefore whether the evidence at
trial was sufficient to satisfy the written description
requirement. Because the common specifications for
each of the two sets of patents differ significantly, we
treat the two invalidity arguments separately.
1.

The Call Control Patents

Time Warner acknowledges that the claims of the
call control patents cover both ATM and IP
communication technology. However, Time Warner
contends that the common specification of the call
control patents is confined to ATM technology, and
that the claims of the call control patents are invalid
because, as applied to IP technology, they are not
supported by the specification. Sprint responds that
the specification is not confined to ATM technology,
but is broad enough to cover IP technology as well.
IP technology is not expressly excluded from the
call control specification. Instead, the specification
refers to “[b]roadband systems, such as Asynchronous
Transfer Mode (ATM),” ’561 patent, col. 2, ll. 28-30, a
formulation that strongly suggests that the patents
are not limited to ATM technology. The specification
adds that the network on which the invention operates
“could be any type of telecommunications network
that operates using network elements, signaling, and
connections.” Id., col. 8, ll. 38-43. Importantly, the call
control patents disclose means for routing
communications between a point on a narrowband
network, such as the PSTN, and a point on a
broadband network, without specifying whether the
point on the broadband network is part of a fixed end-

App-41
to-end path for a single call (as in an ATM-based
system) or part of a path that is established on a
packet-by-packet basis by each separate router (as in
an IP-based system). See ’561 patent, col. 3, ll. 10-20;
id., col. 9, line 62, through col. 10, line 39.
Sprint’s technical expert, Dr. Stephen Wicker,
testified that a person of skill in the art at the time of
the application would have understood the use of the
term “broadband” to include IP as well as ATM
technology. He testified that such a person, reading
the common specification of the call control patents,
would conclude that the inventor “was clearly
thinking about broadband technologies that used
routing to individual elements like IP addresses or
used connections as in ATM.” Dr. Wicker pointed out,
for example, that the call control patents state that the
communication control processor in the system
“processes the signaling and selects at least one
network characteristic in response to the signaling.
Network characteristics might be network elements,
connections, network codes, applications, or control
instructions to name a few examples.” ’561 patent, col.
6, ll. 12-16.
Dr. Wicker explained that the reference to
“connections” was a reference to ATM technology,
while the reference to “network elements” would
encompass IP technology. Those references, according
to Dr. Wicker, showed that the call control patents
were directed to “something more general in the world
of broadband networks than just ATM.”
Dr. Wicker focused on the passage from the call
control patents’ specification that notes that in one
embodiment the “selection of a network characteristic

App-42
will include the selection of a network code,” and that
“network codes are the logical addresses of network
elements.” Id., col. 12, ll. 47-56. That passage, he
testified, indicates that the specification contemplated
the use of IP technology in addition to ATM
technology, since IP addresses are the logical
addresses of network elements.
Dr. Wicker also pointed to a passage in the call
control specification providing that the call control
processor may select only network elements and not
the connections, and that the elements would select
the connections to use. Id., col. 6, line 62, through col.
7, line 9; see also id., col. 7, ll. 22-24 (“The [call control
processor] might select all the network elements, a
portion of the network elements, or none of the
network elements leaving the switches to select the
remainder.”); id., col. 15, ll. 32-34. Based on the
specification, Dr. Wicker inferred that the inventor
was referring to “broadband technologies that used
routing to individual elements like IP addresses or
used connections as in ATM. He’s looking at both.” In
light of the evidence before the jury on the issue, we
cannot conclude that Time Warner has shown by clear
and convincing evidence that the call control
specification lacks an adequate written description to
support the asserted claims.
2.

The Broadband Patents

The common specification of the broadband
patents incorporates the specification of the call
control patents by reference. For the reasons
explained with respect to the call control patents, the
written description in the broadband patents
therefore includes IP technology as well as ATM

App-43
technology. That is so even though the broadband
specification itself is principally focused on the
operation of the invention within ATM communication
systems.
In addition to noting that the broadband patents
incorporate the specification of the call control
patents, Dr. Wicker pointed to particular portions of
the broadband specification to support his opinion
that the broadband specification was not limited to
ATM technology with regard to its discussion of the
“identifier,”
“routing,”
and
“asynchronous
communication” elements. As for the identifier, Dr.
Wicker testified that a person of ordinary skill reading
the broadband specification would have concluded
that the identifier “could be like an IP address
pointing to a destination, it could be like a VPI/VCI
pair pointing to a virtual connection. [It is] more
general than just saying ATM.” The identifier, he
concluded, “could cover any broadband identifier,”
including an IP address. As for “routing,” Dr. Wicker
testified that routing refers to moving packets toward
their destination, with “no limitation on how that’s
done. . . . [T]he route or routing could be any
broadband routing including IP.” As for asynchronous
communication, Dr. Wicker testified that a person of
skill in the art would understand that term, as used in
the broadband specification, “to be more general than
just a particular technology. They would understand
it in the context of the patents to be a broadband
packet switching technology but nothing more
specific.” In summary, Dr. Wicker concluded that the
broadband specification was not limited to a “fixed
path” communication system, such as ATM.

App-44
We are not persuaded by Time Warner’s
argument that the district court’s construction of the
phrase “interworking unit” renders the broadband
patent claims invalid. The district court construed
“interworking unit,” which appears in all asserted
claims of the broadband patents, to mean an “ATM
interworking multiplexer.” Time Warner argues that
because other claim elements, discussed in the
paragraph above, are broad enough to encompass
technologies other than ATM that are “incongruous
with the claimed ATM interworking multiplexer,” the
claims lack written description support. However,
Sprint’s expert testified, with a reference to technical
literature, that ATM and IP are actually interoperable
such that IP datagrams can be transmitted over ATM.
Time Warner’s expert agreed that it was technically
possible to run IP over an ATM network. Based on this
testimony, a reasonable jury could reject Time
Warner’s argument that it would be “nonsensical” to
use IP with an “ATM interworking multiplexer.”
Although the broadband patents focus on ATM
technology, we cannot agree, in light of the record at
trial, that Time Warner has met its burden of showing
by clear and convincing evidence that the common
specification of the broadband patents lacks an
adequate written description of claimed subject
matter in those patents.
D. Infringement Of The Broadband Patents
Under The Doctrine Of Equivalents
Time Warner’s final argument is that the
evidence was insufficient to support the jury’s verdict
that the broadband patents were infringed under the
doctrine of equivalents. The district court construed

App-45
the term “interworking unit” in the broadband patents
to mean an “ATM interworking multiplexer.” 4
Presumably for that reason, the jury found that none
of the claims of the broadband patents were directly
infringed. However, the jury found that those patents
were infringed under the doctrine of equivalents.
At trial, Sprint introduced evidence that Time
Warner’s MGX8880 media gateway, which uses an IP
card to convert data to IP packets, was
interchangeable with an ATM interworking
multiplexer, and therefore satisfied the “interworking
unit” limitation under the doctrine of equivalents. See
Warner-Jenkinson Co. v. Hilton Davis Chem. Co., 520
U.S. 17, 36 (1997) (“The known interchangeability of
substitutes for an element of a patent is one of the
express objective factors . . . bearing upon whether the
accused device is substantially the same as the
patented invention.”).
The evidence of interchangeability was sufficient
to sustain the jury’s verdict. Dr. Wicker testified that
the MGX8880 was designed with interchangeable
cards that allowed the medial gateway to handle
either ATM or IP packets. The fact that swapping
cards was possible and was contemplated by skilled
artisans supports the jury’s conclusion that the IPbased system was equivalent to the ATM-based
system for purposes of the doctrine of equivalents. See
Interactive Pictures Corp. v. Infinite Pictures, Inc., 274
F.3d 1371, 1383-84 (Fed. Cir. 2001).
4 On appeal, Time Warner does not challenge the trial court’s
construction of the broadband patent claims or the court’s
instructions on the doctrine of equivalents.

App-46
To be sure, the evidence showed that converting
Time Warner’s established network from IP to ATM
technology would have entailed substantial work and
expense. However, the fact that the choice of one of two
technologies would be expensive to reverse, once the
choice was made and resources were invested in that
choice, does not mean that the two competing choices
were not equivalent in the first instance. Sprint
introduced evidence that at the outset the choice
between ATM and IP technology, as related to the
invention set forth in the broadband patents, was
simply a design choice. That evidence supports the
jury’s verdict of equivalency.
In addition, Dr. Wicker testified at length
regarding how Time Warner’s IP system satisfied the
function-way-result test for equivalency for each of the
asserted broadband claims. See Sofamor Danek Grp.,
Inc. v. DePuy-Motech, Inc., 74 F.3d 1216, 1221-22 (Fed.
Cir. 1996). He explained that the MGX8880 performed
the same function as the interworking unit recited in
the claims, that it did so in the same way as the
claimed unit, and that it achieved the same result.
Based on the evidence of equivalency adduced at
trial, we hold that Time Warner has failed to show
that the evidence was insufficient to support the jury’s
verdict.
AFFIRMED

App-47
MAYER, Circuit Judge, dissenting.
This case involves a remarkable mismatch
between the narrow patent disclosures and the
exceedingly broad claims. The patents asserted by
Sprint Communications Company, L.P. (“Sprint”) are
invalid as a matter of law because their specifications
provide no written description support for the full
breadth of the asserted claims. I therefore respectfully
dissent.
The specifications of Sprint’s patents describe
ways to address the problems that arise when trying
to connect Asynchronous Transfer Mode (“ATM”)
systems with the traditional Public Switched
Telephone Network (“PSTN”). J.A. 185-88; see also
J.A. 5166-69. The specifications do not mention
Internet Protocol (“IP”) communications or contain
any suggestion that methods of establishing
interconnections between IP networks and the PSTN
are within the scope of the claimed invention.
The common specification of Sprint’s Call Control
Patents, U.S. Patent Nos. 6,463,052 and 6,633,561,
describes a purportedly novel way of linking ATM
networks with the PSTN. It discusses establishing
fixed end-to-end communications paths for calls using
PSTN circuits and ATM virtual circuits. See, e.g., J.A.
185 (2:28-37), 187 (5:16-21), 190 (12:35-46). It further
discloses a “Communication Control Processor,” which
interfaces with the switches to set up a fixed end-toend path for a call. J.A. 187 (5:30), 190 (11:58-12:4);
see also J.A. 177-180.
Importantly, however, the specification contains
no disclosure of IP technology, which operates in a
fundamentally different way than ATM technology.

App-48
Unlike an ATM network, an IP network does not use
circuits or virtual circuits and does not set up a fixed
path for a call. See J.A. 3872-73, 4414-15. To the
contrary, each packet with data for a call is routed
using an identifier in the packet known as an “IP
address.” See J.A. 3872-73. As an expert for Time
Warner Cable, Inc. and related parties explained,
ATM is “like being on a train track where you have to
follow the tracks,” but IP is like “driving a car from
Point A to [Point] B, where you’re free to take different
roads.” J.A. 4827-28; see also J.A. 4413-15. The
common specification of the Call Control Patents does
not contain any disclosure of IP technology, which is
unsurprising given that it is directed to setting up
fixed end-to-end communications paths and IP routing
does not rely on such paths.
Sprint argues that its “Call Control Patents
disclose inventions for routing communications
between a point on a narrowband network and a point
on a broadband network, without regard for whether
the point in a broadband network is part of a fixed
path or is established on a call-by-call basis.” Br. of
Plaintiff-Appellee at 56. In support, it contends that
the common specification of the Call Control Patents
“describe[s] a flexible processing system that may
select ‘all,’ ‘a portion,’ or ‘none’ of the network
elements, as well as ‘all,’ ‘a portion,’ or ‘none’ of the
connections, in performing the steps of the claims.” Id.
(quoting J.A. 188 (7:22-29)). In essence, Sprint argues
that the specification does not require the selection of
all of the network elements and connections in a
communications path. This argument fails. The
common specification makes clear that the
Communication Control Processor and the switches

App-49
will function together to select all of the network
elements and connections. See J.A. 188 (7:20-29) (“One
skilled in the art will recognize that the selection
process can be distributed among the [Communication
Control Processor] and the elements. The
[Communication Control Processor] might select all
the network elements, a portion of the network
elements, or none of the network elements leaving the
switches to select the remainder.” (emphasis added)).
Over and over again, the specification refers to
establishing a communications path. See, e.g., J.A. 185
(1:37-46), 186 (3:15-18), 190 (11:35-36). It contains
nothing even arguably suggesting that a fixed
communications path will not be established, as would
be the case if the claimed invention encompassed IP
technology.
Like its Call Control Patents, Sprint’s Broadband
Patents, U.S. Patent Nos. 6,343,084, 6,473,429, and
6,298,064, lack written description support. The
purported invention described in the common
specification of the Broadband Patents is an
alternative technique for including both PSTN circuits
and virtual circuits in the same communications path.
See J.A. 303-05. The specification’s disclosure makes
sense only in the context of ATM technology. The
common specification does not disclose any packet
identifiers other than ATM VPI/VCI identifiers, any
routing other than ATM routing, or any form of
asynchronous communication other than ATM. See
J.A. 242-53. Importantly, moreover, all of the claims
of the Broadband Patents, as construed by the district
court, require an “ATM interworking multiplexer.”
J.A. 352-55. There is no dispute that an ATM
interworking multiplexer converts calls between

App-50
PSTN and ATM formats, allowing the two types of
networks to be bridged. J.A. 3689; see also J.A. 3863,
4485-86, 5280-81. Nothing in the common
specification suggests or even hints that converting to
and from IP or routing over an IP network is within
the scope of the claimed invention.
Sprint attempts to salvage the verdict of no
invalidity by arguing that the jury was entitled to rely
on the testimony of its expert, Dr. Steven Wicker, who
stated that the asserted patents met the written
description requirement. See J.A. 5638-43, 5647-50,
5670-76. This argument is unpersuasive. Wicker’s
statements were conclusory and unsupported by any
persuasive citation to the patent disclosures or other
record evidence. See, e.g., ActiveVideo Networks, Inc.
v. Verizon Commc’ns, Inc., 694 F.3d 1312, 1327 (Fed.
Cir. 2012) (declining to credit expert testimony that
“was conclusory and factually unsupported”).
Wicker argued that IP networks are within the
scope of the claimed invention because there are
technologies that can “force” an IP network to set up
and use a fixed communications path. See J.A. 573839, 5651-56. This argument is premised on a
misapprehension of the adequate written description
requirement. The salient question “is whether the
disclosure . . . reasonably conveys to those skilled in
the art that the inventor had possession of the claimed
subject matter as of the filing date,” Ariad Pharm.,
Inc. v. Eli Lilly & Co., 598 F.3d 1336, 1351 (Fed. Cir.
2010) (en banc), not whether an undisclosed
technology can be “forced” to operate within the
disclosed system. See Lockwood v. Am. Airlines, Inc.,
107 F.3d 1565, 1572 (Fed. Cir. 1997) (“It is not

App-51
sufficient for purposes of the written description
requirement of § 112 that the disclosure, when
combined with the knowledge in the art, would lead
one to speculate as to [the] modifications that the
inventor might have envisioned, but failed to
disclose.”).
“[T]he purpose of the written description
requirement is to ensure that the scope of the right to
exclude, as set forth in the claims, does not overreach
the scope of the inventor’s contribution to the field of
art as described in the patent specification.” Ariad,
598 F.3d at 1353-54 (citations and internal quotation
marks omitted). Sprint overreaches here. It seeks
broad monopoly rights over interconnections between
narrowband and broadband networks. Nothing in the
patent specifications, however, is sufficient to sweep
non-path technologies like IP within the scope of the
claimed invention. See Gentry Gallery, Inc. v. Berkline
Corp., 134 F.3d 1473, 1480 (Fed. Cir. 1998) (explaining
that “claims may be no broader than the supporting
disclosure”). I would reverse.

App-52
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 17-2247
________________
SPRINT COMMUNICATIONS COMPANY, L.P.,
v.

Plaintiff-Appellee,

TIME WARNER CABLE, INC., TIME WARNER
CABLE, LLC, TIME WARNER ENTERTAINMENT CO., L.P.,
TIME WARNER ENTERTAINMENT-ADVANCE/NEWHOUSE
PARTNERSHIP, TWC COMMUNICATIONS, LLC,
TIME WARNER CABLE INFORMATION
SERVICES (KANSAS), LLC,
Defendants-Appellants.
________________
Mar. 18, 2019
________________
Before Prost, Chief Judge, Newman, Lourie, Dyk,
O’Malley, Reyna, Wallach, Taranto, Chen, and
Hughes, Circuit Judges *.
________________
ON PETITION FOR REHEARING EN BANC
________________
ORDER
________________
*

Circuit Judges Moore and Stoll did not participate.

App-53
Per Curiam.
Appellants Time Warner Cable Information
Services (Kansas), LLC, Time Warner Cable, Inc.,
Time
Warner
Cable,
LLC,
Time
Warner
Entertainment Company, L.P., Time Warner
Entertainment-Advance/Newhouse Partnership and
TWC Communications, LLC filed a petition for
rehearing en banc. A response to the petition was
invited by the court and filed by Appellee Sprint
Communications Company, L.P. The petition was first
referred to the panel that heard the appeal. The panel
denied the petition except as described in the
accompanying panel order.
Upon consideration thereof,
IT IS ORDERED THAT:
(1) The petition for rehearing en banc is denied.
(2) The mandate of this court will issue on
April 24, 2019.
March 18, 2019
Date

FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App-54
Appendix D
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 17-2247
________________
SPRINT COMMUNICATIONS COMPANY, L.P.,
v.

Plaintiff-Appellee,

TIME WARNER CABLE, INC., TIME WARNER
CABLE, LLC, TIME WARNER ENTERTAINMENT CO., L.P.,
TIME WARNER ENTERTAINMENT-ADVANCE/NEWHOUSE
PARTNERSHIP, TWC COMMUNICATIONS, LLC,
TIME WARNER CABLE INFORMATION
SERVICES (KANSAS), LLC,
Defendants-Appellants.
________________
Mar. 18, 2019
________________
Before Chen, Mayer, and Bryson, Circuit Judges.
________________
ON PETITION FOR PANEL REHEARING
________________
ORDER
________________
Per Curiam.
Appellants Time Warner Cable Information
Services (Kansas), LLC, Time Warner Cable, Inc.,
Time
Warner
Cable,
LLC,
Time
Warner

App-55
Entertainment Company, L.P., Time Warner
Entertainment-Advance/Newhouse Partnership and
TWC Communications, LLC filed a petition for
rehearing en banc. A response to the petition was
invited by the court and filed by Appellee Sprint
Communications Company, L.P. The petition was first
referred to the panel.
Upon consideration thereof,
IT IS ORDERED THAT:
(1) The petition for panel rehearing is denied
except as described in paragraph (2) below.
(2) The previous nonprecedential opinion and
judgment in this appeal, issued November 30,
2018, are withdrawn and replaced with the
modified nonprecedential opinion and
judgment accompanying this order.
March 18, 2019
Date

FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App-56
Appendix E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
________________
No. 11-2686
________________
SPRINT COMMUNICATIONS COMPANY, L.P.,
v.

Plaintiff,

TIME WARNER CABLE, INC., et al.,
Defendants.
________________
Decided: May 30, 2017
________________
MEMORANDUM AND ORDER
________________
This patent infringement case was tried to a jury
in this Court from February 13, 2017, through March
3, 2017. By its verdict, the jury found the following:
that Time Warner Cable 1 infringed each of the
asserted claims of the five Sprint patents at issue; that
none of those claims is invalid; that Sprint proved
reasonable royalty damages in the amount of
$139,800,000; and that Time Warner Cable’s
infringement was willful. By Memorandum and Order
of March 14, 2017, the Court issued findings of fact
and conclusions of law, by which it rejected Time
1 The Court refers to plaintiff as “Sprint” and to defendants
collectively as “Time Warner Cable.”

App-57
Warner Cable’s equitable defenses and denied Sprint’s
claim
for
enhanced
damages.
See
Sprint
Communications Co. L.P. v. Time Warner Cable, Inc.,
2017 WL 978107 (D. Kan. Mar. 14, 2017) (Lungstrum,
J.). Also on March 14, 2017, the Court entered
judgment in Sprint’s favor in the amount of the jury
verdict (plus postjudgment interest and costs).
This matter presently comes before the Court on
Time Warner Cable’s posttrial motion for judgment as
a matter of law pursuant to Fed. R. Civ. P. 50(b) (Doc.
# 485). For the reasons set forth below, the Court
denies the motion. 2
This matter also comes before the Court on
Sprint’s motion for an amendment of the judgment,
pursuant to Fed. R. Civ. P. 59, to add an award of
prejudgment interest (Doc. # 483). The Court grants
the motion in part, and it awards Sprint prejudgment
interest in the amount of $6,183,548.00. The Court
will issue an amended judgment accordingly.
I.

Time Warner Cable’s Motion for Judgment
as a Matter of Law
A. Governing Standard

Judgment as a matter of law under Fed. R. Civ. P.
50(b) is improper “unless the proof is all one way or so
overwhelmingly preponderant in favor of the movant
By the same filing, Time Warner Cable has also moved in the
alternative for a new trial pursuant to Fed. R. Civ. P. 59(a) with
respect to the issues of damages, infringement, and invalidity.
Time Warner Cable has not identified any trial error, however,
or asserted any separate basis for a new trial with respect to any
issue. The Court therefore summarily denies the alternative
motion for a new trial.
2

App-58
as to permit no other rational conclusion.” See
Crumpacker v. Kansas Dept. of Human Resources, 474
F.3d 747, 751 (10th Cir. 2007). In determining
whether judgment as a matter of law is proper, a court
may not weigh the evidence, consider the credibility of
witnesses, or substitute its judgment for that of the
jury. See Sims v. Great American Life Ins. Co., 469
F.3d 870, 891 (10th Cir. 2006). In essence, a court
must affirm a jury verdict if, viewing the record in the
light most favorable to the nonmoving party, the
record contains evidence upon which the jury could
properly return a verdict for the nonmoving party. See
Bartee v. Michelin North America, Inc., 374 F.3d 906,
914 (10th Cir. 2004). Conversely, the court must enter
judgment as a matter of law in favor of the moving
party if “there is no legally sufficient evidentiary basis
for a reasonable jury to find for the issue against that
party.” See Sims, 469 F.3d at 891.
B. Damages
1. Time Warner Cable requests judgment as a
matter of law on Sprint’s claim for damages. Time
Warner Cable renews the “Catch-22” argument that it
made in motions at the close of Sprint’s case and after
the submission of all evidence. The argument proceeds
as follows: Sprint presented evidence of a reasonable
royalty only through its damages expert, Dr. Mohan
Rao. Dr. Rao declined to apportion damages among
the patents at issue, based on his assumption (from
Sprint’s technical expert, Dr. Stephen Wicker) that
the patents were “blocking patents,” meaning that any
VoIP-PSTN connection would infringe at least one of
Sprint’s patents. Thus, Sprint was required to prove
the assumption that the patents were blocking

App-59
patents. If there was no such evidence, then there was
no basis for Dr. Rao’s royalty opinion, and Sprint’s
damages claim must fail. If, on the other hand,
Sprint’s patents were blocking patents, then Time
Warner Cable must also have infringed prior to the
accused Go-It-Alone system, which was launched in
2010. In that case, in which Time Warner Cable
infringed going back as far as 2003, 2010 would not be
an appropriate date for the hypothetical license
negotiation that informs the royalty determination.
Dr. Rao considered only a 2010 hypothetical
negotiation; thus, if the use of that date was improper,
Dr. Rao would have no royalty opinion. Either way,
argues Time Warner Cable, Dr. Rao’s royalty opinion
lacks support.
The Court concludes, however, that there is no
Catch-22 here as argued by Time Warner Cable. The
issue is whether there was sufficient evidence to
support Dr. Rao’s assumption of blocking patents. In
its answer to a special verdict interrogatory, the jury
found that Sprint had proved that the appropriate
date for the hypothetical negotiation was 2010. The
jury had been instructed (in an instruction that Time
Warner Cable has not challenged) that “[a] reasonable
royalty is the amount of royalty payment that [the
parties] would have agreed to in a hypothetical
negotiation taking place at a time prior to when the
infringing use first began.” As the Court has
previously noted, if the prior infringement was by a
different product, the date of the hypothetical
negotiation date would be at the start of the present
infringement and not at the start of the prior
infringement. See Sprint Communications Co. L.P. v.
Comcast Cable Communications LLC, 2016 WL

App-60
7079522, at *14 (D. Kan. Dec. 5, 2016) (Lungstrum, J.)
(hereafter Daubert Order) (citing Fujifilm Corp. v.
Motorola Mobility LLC, 2015 WL 1265009, at *3 (N.D.
Cal. Mar. 19, 2015)). Time Warner Cable has not
challenged the jury’s finding that 2010 was the
appropriate negotiation date. Moreover, that finding
is supported by evidence that Time Warner Cable’s
Go-It-Alone product was a distinct product launched
in 2010 that used differed equipment or architecture.
Thus, the fact that the jury found 2010 to be the
appropriate date for the hypothetical negotiation does
not mean that Time Warner Cable’s pre-2010
activities did or did not infringe Sprint’s patents.
Indeed, as the Court noted at trial, there is no
competent evidence from which the jury could have
made such a determination, as neither party’s expert
offered such an opinion concerning Time Warner
Cable’s pre-2010 products. Accordingly, the jury’s
finding and Dr. Rao’s use of a 2010 date does not mean
that the patents could not be blocking patents, which
in turn means that Sprint’s positions are not
irreconcilable and there is no Catch-22.
Addressing the relevant question, the Court
concludes that there was evidence presented at trial to
support Dr. Rao’s assumption that Sprint’s patents
were blocking patents. As noted above, Dr. Rao relied
on Dr. Wicker for that assumption, and Dr. Wicker
testified that there were no non-infringing
alternatives for Time Warner Cable’s system in 2010.
Time Warner Cable argues that Dr. Wicker did not
testify that there were no non-infringing alternatives,
but that he addressed only particular alternatives
proposed by Time Warner Cable’s experts in discovery.
At the conclusion of that testimony, however, Dr.

App-61
Wicker testified that he did not find any acceptable
non-infringing alternatives “in general.” Viewed in the
light most favorable to Sprint, the non-moving party,
this testimony provides evidence that there were no
non-infringing alternatives. Time Warner Cable
argues that Dr. Wicker failed to consider Time Warner
Cable’s pre-2010 systems as alternatives, but Time
Warner Cable was free to raise that issue in crossexamining Dr. Wicker or through its own expert, and
it did neither. Thus, Dr. Wicker’s testimony that there
were no non-infringing alternatives stood unrebutted.
Moreover, under Time Warner Cable’s central
argument, those pre-2010 activities also infringed and
thus they would not have been non-infringing
alternatives.
Time Warner Cable also argues that the lack of
non-infringing alternatives does not mean that the
patents were blocking patents as assumed by Dr. Rao.
Time Warner Cable argues that the standard for noninfringing alternatives is narrower, in that such
alternatives must be available and acceptable. In fact,
the jury was instructed (in an instruction not
challenged by Time Warner Cable) that it could
consider evidence concerning the availability of a noninfringing alternative, which must be an acceptable
product (with no mention of availability). A reasonable
interpretation of blocking patents as used by Dr. Rao
would be that any acceptable product would infringe
Sprint’s patents. Thus, considered in the light most
favorable to Sprint, the evidence was sufficient to
allow the jury to find reasonably that Dr. Rao’s
assumption had been proved and thus to accept Dr.
Rao’s royalty opinion. The Court therefore denies

App-62
Time Warner Cable’s motion for judgment on this
basis.
2. Time Warner Cable also renews its argument—
which the Court has repeatedly rejected—that Dr.
Rao’s royalty opinion was improper and represented
“junk science” because it was based on the verdict in
the Vonage case, in which Sprint’s damages expert
employed a 25-percent rule that the Federal Circuit
has since ruled unreliable. As the Court has
previously explained, Dr. Rao did not use the 25percent rule in forming his royalty opinion in this case;
in Vonage, the jury heard different damages opinions,
and it did not find damages in accord with the opinion
of Sprint’s damages expert; and the verdict represents
a piece of information that the parties might have
considered in a hypothetical license negotiation. See,
e.g., Daubert Order, 2016 WL 7079522, at *9-10. Time
Warner Cable has not provided authority that
suggests that the verdict could not be used here. Nor
has Time Warner Cable addressed the Court’s
reasoning in consistently rejecting this argument.
Therefore, the Court rejects this argument once again,
and it denies the motion for judgment on this basis.
3. Finally, in a footnote, Time Warner Cable
reasserts various failed arguments from its Daubert
motion and its motions in limine. Time Warner Cable
has not provided any basis for reconsideration of those
earlier rulings, however (the footnote is devoid of
argument), and therefore the Court summarily denies
any such request for relief.
C. Infringement
Time Warner Cable moves for judgment as a
matter of law on Sprint’s claims for patent

App-63
infringement. The jury found that Time Warner Cable
infringed five Sprint patents. Time Warner Cable
argues that Sprint failed in its proof with respect to
nine particular claim limitations, which the Court
addresses in turn.
1. Time Warner Cable asserts that Sprint failed to
prove satisfaction of the “in response to” limitation
found in four of the patents. In general, that limitation
requires conversion or transfer of a voice
communication “in response to” receiving a particular
message. Time Warner Cable essentially argues that
the conversion or transfer in its system is not “in
response to” the receipt of the message because other
steps are required after receipt for the conversion or
transfer to occur. The Court rejects this argument.
In its claim construction order, the Court rejected
Time Warner Cable’s proposed construction that
would require the action taken “in response to”
something be taken immediately; it noted that the
term requires only some concept of causation, not
immediacy; and it declined to construe the term. See
Sprint Communications Co. L.P. v. Comcast Cable
Communications LLC, 2014 WL 5089402, at *25 (D.
Kan. Oct. 9, 2014) (Lungstrum, J.) (hereafter
Markman Order). Thus, there is no additional
limitation requiring that the conversion or transfer be
“in response to” the receipt of the message without any
intervening steps or without any additional causes.
Under the plain meaning of the term, the conversion
or transfer could be “in response to” the receipt of the
message even if other steps are also required for that
conversion or transfer. Dr. Wicker provided specific
testimony that this limitation as found in the four

App-64
patents was satisfied by the accused system, and that
testimony must be credited for purposes of this motion
and provides a sufficient basis for the jury’s verdict.
2. Time Warner Cable asserts that Sprint failed to
prove
satisfaction
of
the
“asynchronous
communication” term in three patents. In the claim
construction process, the Court was not asked to
construe this term; and in declining to construe the
term “asynchronous communication system,” the
Court noted that the plain meaning of “asynchronous
communication” was a communication in which the
transmitting and receiving devices do not share a
common clock. See Markman Order, 2014 WL
5089402, at *20. At trial, Sprint provided sufficient
evidence that this term was satisfied in the accused
system, as Dr. Wicker testified that the relevant
communications were asynchronous because there
was no strict timing relationship in Time Warner
Cable’s managed IP network. 3
Time
Warner
Cable
argues
that
the
communications were not asynchronous because they
also passed through the DOCSIS network in Time
Warner Cable’s system, which network used shared
clocks. That argument goes to the weight of Dr.
Wicker’s opinion only. Time Warner Cable did make
that argument at trial, but the jury rejected it by its
verdict. The Court cannot conclude as a matter of law
3 The Court rejects Time Warner Cable’s argument, raised in
its reply brief, that this testimony by Dr. Wicker was merely
conclusory. Dr. Wicker did not simply opine at trial that this
limitation was satisfied; rather, he explained what asynchronous
communications were and why Time Warner Cable’s system
included such communications.

App-65
that this limitation was not satisfied, as Sprint did
provide evidence to the contrary. Accordingly, the
Court rejects this argument for judgment as a matter
of law.
3. Time Warner Cable asserts that Sprint failed to
prove satisfaction of the “processing . . . to select”
limitation in three patents. In its claim construction
order, the Court rejected Time Warner Cable’s
proposed limitation that would have required the
processing element actually to make the selection, and
it instead construed this term to mean
“processing . . . to participate in the selecting.” See
Markman Order, 2014 WL 5089402, at *14-15. Time
Warner Cable now argues that other elements, not the
processing element, actually make the selection of the
network code or identifier in the accused system. Time
Warner Cable has not explained, however, why the
processing element does not participate in the
selecting, in accordance with the Court’s construction.
Sprint offered evidence, in the form of testimony by
Dr. Wicker, that this limitation was satisfied in Time
Warner Cable’s system. Thus, the Court rejects this
argument for judgment as a matter of law. 4
4. Time Warner Cable asserts that Sprint failed to
prove satisfaction of the “interworking unit” limitation
Time Warner Cable does not raise the issue as a separate noninfringement argument in its brief, but it argues in a footnote
that the selected “network code” must include a port number and
not merely an IP address. Time Warner Cable argues that Sprint
failed to present evidence on that “claim limitation.” The claims
do not limit “network code” in that way, however, and the Court
was not asked to construe “network code” in that manner either
at the claim construction stage or at trial. Thus, Sprint was not
required to prove satisfaction of any such proposed limitation.
4

App-66
found in three patents, which the Court construed to
mean an “ATM interworking multiplexer.” See id. at
*15-17. The jury found that the relevant claims were
not literally infringed but were infringed under the
doctrine of equivalents. The Court instructed the jury
with respect to equivalence as follows:
You may find that an element or step is
equivalent to a requirement of a claim that is
not met literally if a person having ordinary
skill in the field of technology of the patent
would have considered the differences
between them to be “insubstantial” or would
have found that the structure or action:
(1) performs substantially the same function
and (2) works in substantially the same way
(3) to achieve substantially the same result as
the requirement of the claim.
The known interchangeability of substitutes
for an element of a patent claim also is a
factor that bears upon whether an accused
structure or action is substantially the same
as the claimed structure or action. In order for
the structure or action to be considered
interchangeable, the structure or action must
have been known at the time of the alleged
infringement to a person having ordinary
skill in the field of technology of the patent.
Time Warner Cable argues that Sprint did not present
sufficient evidence that the accused media gateway
was equivalent to an ATM interworking multiplexer.
The Court disagrees. First, Dr. Wicker testified that
the gateway satisfied the function-way-result test
referenced in the instruction. The Court does not agree

App-67
with Time Warner Cable that that testimony was
impermissibly conclusory, as Dr. Wicker explained
why he believed the two devices’ functions and results
were identical and the ways were not substantially
different. Dr. Wicker also testified that there was
known interchangeability because different cards
could be swapped into the gateway. Time Warner
Cable cites its own contrary evidence concerning the
cards, but that dispute was properly addressed to the
jury, which found equivalence here. The Court
concludes that Sprint’s evidence on this issue was
sufficient, and it therefore denies this basis for
judgment as a matter of law.
5. Time Warner Cable asserts that Sprint failed to
prove satisfaction of the “identifier” term in two
patents. Time Warner Cable argues that the
identifiers here must be VPI/VCI connections and that
Sprint has not shown that the accused system had
ATM identifiers. The Court rejects this argument, as
the Court did not construe this term to add such a
limitation. Time Warner Cable repeats its argument
that because ATM technology is required by the claims
(by virtue of the “interworking unit” construction),
other elements must be ATM as well. In its claim
construction order, the Court explained why it refused
to construe “identifier” (which term is generally
absent from the patents’ specification) to add such a
limitation. See id. at *18. The Court again rejected this
argument at the summary judgment stage, as follows:
Thus, under the Court’s constructions, the
scope of the claims match the patents’
specifications, as a term is limited to ATM
technology only if the specification has done

App-68
so. The specification does not make clear that
the inventions are limited to ATM technology,
other than by limiting the inventions to the
use of an ATM interworking multiplexer.
See Sprint Communications Co. L.P. v. Comcast Cable
Communications LLC, 2016 WL 7052055, at *4 (D.
Kan. Dec. 5, 2016) (Lungstrum, J.) (hereafter
Summary Judgment Order). Thus, the fact that Sprint
did not prove satisfaction of an additional limitation
contrary to the Court’s claim constructions does not
provide a basis for judgment for Time Warner Cable.
6. Time Warner Cable asserts that Sprint failed to
prove satisfaction of the “narrowband system”
limitation in two patents. Time Warner Cable argues
that the pertinent signaling passes through a
Syniverse device, which is not a narrowband system.
Dr. Wicker specifically addressed and rejected this
argument at trial, however, as did the jury in finding
for Sprint. Dr. Wicker’s testimony is sufficient to
support the jury’s verdict with respect to this issue.
7. Time Warner Cable asserts that Sprint failed to
prove satisfaction of the “egress” limitation in two
patents. The relevant claims refer to the user
communication’s
egress
“from
the
packet
communication system.” With respect to this
limitation, Time Warner Cable argues that Sprint has
failed to show that the communication egresses to
another network. Time Warner Cable cites the
patents’ specification for that requirement of egress to
another network. The patent claims contain no such
requirement, however, and it is too late for Time
Warner Cable propose a new construction based on the
specification. Time Warner Cable failed to propose

App-69
such a construction at the claim construction stage or
at trial, and thus Sprint was not required to show
satisfaction of any additional limitation. The Court
therefore rejects this basis for judgment argued by
Time Warner Cable.
8. Time Warner Cable asserts that Sprint failed to
prove satisfaction of the ’064 Patent’s step of
“converting the asynchronous communication into a
user communication.” Time Warner Cable argues that
Sprint has failed to show a conversion from something
that was not a user communication to something that
was. Dr. Wicker testified, however, that in the accused
system
IP
packets
(the
asynchronous
communications) are converted into TDM (a form for
the PSTN) (the user communication). That testimony
is sufficient to meet the plain language of the claim,
and the Court therefore rejects this argument for
judgment.
9. Time Warner Cable asserts that Sprint failed to
prove satisfaction of the limitation in the two patents
requiring transfer to the packet communication
system (PCS). Time Warner Cable argues that
because the transferring element is contained within
the PCS, there can be no transfer to the PCS. Time
Warner Cable made the same argument at the claim
construction stage. In its ruling at that time, the
Court, in construing the terms “transmitting”,
“receiving”, and “transferring”, declined to impose a
limitation that would prohibit one of the two elements
involved in the transfer from being part of the other.
See Markman Order, 2014 WL 5089402, at *27-28. In
so ruling, the Court noted that the relevant
specification did not support such a limitation, as the

App-70
specification indicated that the processing system (the
transferring element) could be integrated into the
packet-based network (the receiving element). See id.
at *28. Time Warner Cable has not addressed that
language from the specification in arguing again that
the transferring element cannot be part of the
receiving element. Moreover, the Court further stated
in its claim construction ruling that it could not
impose the limitation urged by Time Warner Cable
without a specific argument based on the particular
transferring and receiving elements. See id. Although
Comcast made such a specific argument in another
case with respect to a different patent at the summary
judgment stage, Time Warner Cable did not do so with
respect to these two patents in this case prior to or at
trial. Accordingly, the Court confirms its prior ruling
that, under their plain language, these patent claims
do not include the additional limitation urged by Time
Warner Cable, and the Court therefore rejects this
argument for judgment as a matter of law.
D. Invalidity –
Requirement

Written

Description

At trial, Time Warner Cable asserted that each
patent claim at issue was invalid for failure to satisfy
the written description requirement of 35 U.S.C.
§ 112. With respect to each claim, the jury found that
Time Warner Cable had failed to meet its burden to
show such invalidity by clear and convincing evidence.
Time Warner Cable now argues that its is entitled to
judgment as a matter of law on this invalidity defense.
1. Time Warner Cable argues that the so-called
Call Control Patents (the ’561 Patent and the ’052
Patent) are invalid because the relevant specification

App-71
discloses an ATM switch that did not exist at the time
of the patent applications. During trial, the Court
excluded testimony from one witness relating to the
existence of such a switch, but Time Warner Cable’s
technical expert, Dr. Paul Min, was subsequently
permitted to testify that such a switch did not exist
and that the inventor therefore did not possess his
invention as required.
The Court rejects this argument. Time Warner
Cable has not cited any authority indicating that a
patent is invalid if something disclosed in the
specification did not exist. Rather, the authority on
which Time Warner Cable relies indicates that the
specification must show possession of the invention
claimed in the patent. See, e.g., Novozymes A/S v.
DuPont Nutrition Biosciences APS, 723 F.3d 1336,
1344 (Fed. Cir. 2013). As the Court pointed out in its
ruling excluding testimony from one fact witness, the
patent claims here do not require the use of an ATM
switch. Thus, the fact that no such switch existed is
not dispositive.
Time Warner Cable argues in its reply that the
claims do require a packet communication system and
that the only disclosed embodiment of such a system
in the specification uses an ATM switch. Again,
however, Time Warner Cable has not supported that
argument with relevant authority. At trial, the Court
instructed the jury on the relevant law as follows:
A patent must contain a written description
of the system or method claimed in the
patent. In order to satisfy the written
description
requirement,
the
patent
specification must describe each and every

App-72
limitation of a patent claim, although the
exact words found in the claim need not be
used.
The written description requirement is
satisfied if a person of ordinary skill in the
field, reading the patent application as
originally filed, would recognize that the
patent application described the invention as
finally claimed in the patent.
The written description requirement may be
satisfied by any combination of the words,
structures, figures, diagrams, formulas, etc.,
contained in the patent application. The full
scope of a claim or any particular
requirement in a claim need not be expressly
disclosed in the original patent application if
a person having ordinary skill in the field of
technology of the patent at the time of filing
would have understood that the full scope or
missing requirement is in the written
description in the patent application. The
specification need not describe in detail all
possible examples to satisfy the written
description requirement.
Time Warner Cable has not argued that the Court
erred in giving this instruction. Thus, the jury was
properly instructed that the full scope of the claim
need not be expressly disclosed in the specification, so
long as a person skilled in the art would have
understood the scope of the claim. Nor must the
specification describe all possible examples.
Therefore, the fact that the embodiments do not
include a system without an ATM switch is not

App-73
dispositive and does not require judgment as a matter
of law in Time Warner Cable’s favor. 5
2. Time Warner Cable next argues that the Call
Control Patents should be deemed invalid as a matter
of law because, although the patent claims are broad
enough to cover an IP network without fixed end-toend paths or separate signaling networks, the
specification does not describe such an IP network.
The Court rejects this argument as well. Time Warner
Cable bore the burden to prove this defense by clear
and convincing evidence, and the jury was entitled to
reject this defense. Sprint cross-examined Dr. Min at
some length, and the jury was entitled not to credit his
expert testimony. Moreover, Dr. Wicker addressed
and refuted these specific opinions by Dr. Min, and
such evidence is sufficient to support the jury’s
decision to reject this defense.
Time Warner Cable is essentially arguing that the
specification had to disclose and describe all
possibilities covered by the patent claims, but it has
not cited any authority suggesting that the written
description requirement must be applied in that way.
Rather, under the law as explained to the jury, the
specification must describe the invention claimed by
the inventor, and the issue is whether one skilled in
the art would recognize that the invention as claimed
has been described. At trial, the parties offered
contrary expert opinions, as Dr. Wicker testified that
one skilled in the art would recognize from the
5 Dr. Min did make this argument concerning the non-existence
of the ATM switch, but the jury was not required to credit that
testimony (and it rejected that testimony by finding against Time
Warner Cable).

App-74
specification that the claimed invention was not
limited to the use of a fixed end-to-end path or the use
of a separate signaling network. A reasonable jury
could have credited that testimony over Dr. Min’s
opinions. Therefore, the Court denies the motion for
judgment as a matter of law on the issue of the written
description requirement as applied to the Call Control
Patents.
3. Time Warner Cable also argues as a matter of
law that the so-called Broadband Patents (the ’064
Patent, the ’084 Patent, and the ’429 Patent) are
invalid for failure to satisfy the written description
requirement. Time Warner Cable notes that under the
Court’s claim constructions, the elements of
“identifier”,
“routing”,
and
“asynchronous
communication” are not limited to ATM, and it argues
that the specification discloses only ATM examples for
those elements. The Court rejects this argument.
Again, as the jury was instructed, the specification
need not describe every possible covered example, as
long as one skilled in the art would recognize from the
specification that the invention is not so limited.
Sprint did present evidence on this issue that supports
the jury’s decision to reject this defense, as Dr. Wicker
testified that one skilled in the art would understand
that those elements are not limited to ATM.
Time Warner Cable argues that Sprint has
improperly relied on the Broadband Patent
specification’s incorporation of the Call Control Patent
specification. The cases cited by Time Warner Cable,
however, do not prohibit such incorporation of one
specification by another. Rather, the requirement is
that the incorporating document identify clearly the

App-75
particular material incorporated. See Hollmer v.
Harari, 681 F.3d 1351, 1357 (Fed. Cir. 2012). With
respect to the written description requirement, the
question of incorporation is viewed from the position
of one skilled in the art. See id. As conceded by Time
Warner Cable, the Broadband specification explicitly
incorporates the Call Control specification. Moreover,
both Dr. Min and Dr. Wicker testified to such
incorporation. Thus, there is no basis to preclude
consideration of the Call Control specification in
determining the validity of the Broadband Patents.
Time Warner Cable notes that the Court
sustained an objection at trial to testimony by Dr.
Wicker concerning his reliance on the incorporation of
the Call Control specification. In that instance, the
Court excluded one piece of testimony because that
particular opinion had not been disclosed in Dr.
Wicker’s expert reports. The Court did not strike any
other testimony, however, in which Dr. Wicker had
offered opinions without objection. Indeed, prior to the
one objection made by Time Warner Cable, Dr. Wicker
had testified without objection about how, in light of
the incorporation, both specifications could be
considered in determining the Broadband Patents’
satisfaction of the written description requirement.
Dr. Min also conceded on cross-examination, without
objection by Time Warner Cable, that both
specifications applied to the Broadband Patents.
Thus, despite the Court’s sustaining one objection,
there was still sufficient evidence admitted at trial,
including Dr. Wicker’s testimony that both
specifications generally were not limited to ATM, to
support the jury’s rejection of this argument by Time
Warner Cable.

App-76
Finally, even if Dr. Wicker had been prohibited
from relying on the Call Control specification, the
result would not change, as Dr. Wicker specifically
testified that the Broadband specification was not
limited to ATM for these three particular elements.
Accordingly, Time Warner Cable is not entitled to
judgment as a matter of law simply because the
Broadband specification shows ATM versions of these
elements. As the Court has ruled repeatedly, because
the specification limits the invention to ATM only with
respect to the interworking unit, other elements are
not construed as limited to ATM. Thus, the jury’s
implicit finding that the specification does not limit
those elements to ATM is consistent and reasonable.
Ultimately, Time Warner Cable’s defense presented a
question of fact concerning how one skilled in the art
would have understood the specification. Dr. Min’s
opinions on that question were challenged in crossexamination and in Dr. Wicker’s contrary testimony,
and the jury was entitled to reject Dr. Min’s testimony
and find that Time Warner Cable had not sustained
its heightened burden of proof. The Court therefore
denies the motion for judgment as a matter of law on
this defense as applied to the Broadband Patents.
E. Invalidity – Anticipation or Obviousness
At trial, Time Warner Cable asserted that each
patent claim at issue was invalid as obvious in light of
two pieces of prior art, and it further asserted that
most of the patent claims were invalid as anticipated
in light of one of those pieces of prior art. The jury
found in favor of Sprint on each of those assertions. In
rather cursory fashion (in less than one page in its
initial brief), Time Warner Cable now seeks judgment

App-77
as a matter of law on those invalidity defenses,
arguing that no reasonable jury could have found in
favor of Sprint. The Court rejects that argument. Time
Warner Cable concedes that it had the burden at trial
to prove these invalidity defenses by clear and
convincing evidence. Time Warner Cable points to its
own evidence on these issues, but that evidence was
not unrebutted, as Dr. Wicker testified at some length
that the disclosures in the asserted prior art were
insufficient. 6 In light of that evidence, the Court
concludes that the jury could reasonably have found
that Time Warner Cable failed to sustain its
heightened burden of proof on these issues.
F. Willfulness
Finally, Time Warner Cable moves for judgment
as a matter of law with respect to the issue of
willfulness, which the jury found in Sprint’s favor.
Time Warner Cable has not explained why the Court
should address this issue, however, which has become
moot in light of the Court’s denial of Sprint’s claim for
enhanced damages. See Presidio Components, Inc. v.
American Tech. Ceramics Corp., 2016 WL 4377096, at
*10 (S.D. Cal. Aug. 17, 2016) (noting that the
defendant’s posttrial motion for judgment as a matter
of law on the issue of willfulness was essentially moot
In its brief, Time Warner Cable argues that Dr. Wicker offered
only conclusory testimony to contradict its own expert, but to
support that argument Time Warner Cable cites only two pages
of Dr. Wicker’s testimony on cross-examination, while failing to
address Dr. Wicker’s direct testimony, over many pages, in
rebuttal to Time Warner Cable’s expert. Time Warner Cable’s
argument that Dr. Wicker’s testimony is merely conclusory is
entirely meritless.
6

App-78
in light of the court’s decision not to award enhanced
damages), appeal filed (Fed. Cir. Aug. 17, 2016).
Moreover,
sufficient
evidence
of
willful
infringement was presented at trial. With respect to
willfulness, the Court instructed the jury in relevant
part as follows:
In order to prove willful infringement, Sprint
must prove, by a preponderance of the
evidence, that Time Warner Cable knew or
believed, or it was so obvious that it should
have known, that there was a high likelihood
that it was infringing a valid patent. In
making that determination, you should
consider all facts relating to Time Warner
Cable’s knowledge at the time it performed
acts of infringement.
With respect to this question of willfulness,
you are instructed that, under the law, Time
Warner Cable had no duty to obtain any
opinions of counsel. 7
As discussed above, sufficient evidence supports the
jury’s findings of infringement and validity. The jury
also heard evidence that Time Warner Cable was
aware of Sprint’s patents. For instance, as noted by
the Court in its posttrial findings and conclusions,
Sprint presented credible evidence that the parties
discussed Sprint’s patents, that Time Warner Cable
7 In a footnote in its brief, Time Warner Cable repeats the
objection that it made at trial to this instruction. Time Warner
Cable has not moved for a new trial on the issue of willfulness,
however—likely because the Court denied the claim for enhanced
damages. Thus, the Court need not repeat its reasoning in giving
this instruction.

App-79
monitored Sprint’s infringement suit against Vonage,
and that Time Warner Cable subsequently
investigated Sprint’s patents. See Sprint v. Time
Warner Cable, 2017 WL 978107, at *4-7. Thus, the
jury reasonably could have found that Time Warner
Cable should have known of a high likelihood that it
was infringing a valid patent. See i4i Ltd. Partnership
v. Microsoft Corp., 598 F.3d 831, 860 (Fed. Cir. 2010)
(evidence that the defendant knew about the patent
and the plaintiff’s product that practiced the patent
supported the jury’s finding on this Seagate prong),
aff’d on other grounds, 564 U.S. 91 (2011).
Accordingly, the Court denies the motion for judgment
as a matter of law on the issue of willfulness.
II. Sprint’s Motion for Prejudgment Interest
Sprint moves to amend the judgment pursuant to
Fed. R. Civ. P. 59(e) to add an award of prejudgment
interest. 28 U.S.C. § 284 provides that a court should
award damages for patent infringement “together
with interest and costs as fixed by the court.” See id.
The Supreme Court has set forth the relevant
standard:
The standard governing the award of
prejudgment interest under § 284 should be
consistent with Congress’ overriding purpose
of affording patent owners complete
compensation. In light of that purpose, we
conclude that prejudgment interest should
ordinarily be awarded. In the typical case an
award of prejudgment interest is necessary to
ensure that the patent owner is placed in as
good a position as he would have been in had
the infringer entered into a reasonable

App-80
royalty agreement. An award of interest from
the time that the royalty payments would
have been received merely serves to make the
patent owner whole, since his damages
consist not only of the value of the royalty
payments but also the foregone use of the
money between the time of infringement and
the date of the judgment.
See General Motors Corp. v. Devex Corp., 461 U.S. 648,
655-56 (1983) (footnote omitted). As Time Warner
Cable notes, the Supreme Court further stated in
General Motors that an award of prejudgment interest
is not required whenever infringement is found; that
the court has some discretion in awarding interest;
and that it may be appropriate to limit or deny
interest, as when the patent owner has unduly
delayed in prosecuting the lawsuit. See id. at 656-57.
Thus, “prejudgment interest should be awarded under
§ 284 absent some justification for withholding such
an award.” See id. at 657.
Time Warner Cable makes two arguments for a
denial of interest in this case. First, Time Warner
Cable cites the Court’s statement, in its ruling denying
enhanced damages, that the jury’s award adequately
compensates Sprint for the infringement. See Time
Warner Cable, 2017 WL 978107, at *14. The Court
denied enhanced damages, however, because it
concluded that this case was not egregious, see id., and
its purpose was to state that the jury’s verdict
represented adequate compensation purely for the
royalty it should have received in 2010. The Court did
not, by that statement, address whether Sprint also
lost the use of that money after that date. In fact, as

App-81
in the typical case, a 2017 award would not fully
compensate Sprint unless it received compensation for
that time value. Second, Time Warner Cable argues
that the Court should consider that Sprint did not
initiate this suit until 14 months after the
infringement began when Time Warner Cable’s Go-ItAlone system was launched on October 1, 2010. As it
did in its posttrial findings, however, the Court finds
that Sprint did not delay unreasonably in initiating
this suit. See id. at *8-10; see also General Motors, 461
U.S. at 657 n.11 (determination whether the plaintiff
unduly delayed prosecution of the suit is committed to
the discretion of the district court). Accordingly, the
Court, in its discretion, rules that there is no basis for
departing from the usual rule here and that an award
of prejudgment interest is therefore appropriate in
this case.
Sprint requests prejudgment interest from
October 1, 2010, when the accused system was
launched. Without citation to any authority, Time
Warner Cable suggests that interest should run only
from the filing of this action. In General Motors,
however, the Supreme Court specifically referred to an
award of interest from the time of infringement to the
date of judgment, and it noted that the purpose of such
interest is to place the patent owner in the position it
would have been in under a reasonable royalty
agreement. See General Motors, 461 U.S. at 655-56. As
the Court instructed the jury in this case, damages are
set by reference to a hypothetical license negotiation
occurring just prior to the date of infringement. Thus,
the Court will award prejudgment interest running
from October 1, 2010, as requested by Sprint.

App-82
“Because there is no federal statutory interest
rate on prejudgment interest, the rate imposed [is] left
to the trial court’s discretion.” See Kleier Advertising,
Inc. v. Premier Pontiac, Inc., 921 F.2d 1036, 1042 n.4
(10th Cir. 1990). 8 Sprint proposes that the Court
award interest at a prime interest rate ranging from
3.25 to 3.59 percent over the interest period. Sprint
argues that such a rate is appropriate because it
borrowed heavily during the interest period and could
have avoided some of that borrowing if it had received
money under a licensing agreement. In the
alternative, Sprint seeks an award at the applicable
postjudgment interest rate of 1.06 percent. Time
Warner Cable argues that the postjudgment rate
should be used.
The Court applies its discretion here, but it takes
its cue from statements by the Tenth Circuit in Kleier.
That court stated that the rate was left to the trial
court’s discretion, but it nevertheless noted that the
Seventh Circuit had in one case suggested use of the
prime rate, while the Ninth Circuit had in another
case suggested using the 52-week Treasury bill rate.
See id. In its case, however, the Seventh Circuit chose
the prime rate over the postjudgment Treasury rate to
account for the risk of default. See Gorenstein Enters.,
Inc. v. Quality Care-USA, Inc., 874 F.2d 431, 436-37
(7th Cir. 1989) (cited in Kleier). In the other case cited
in Kleier, the Ninth Circuit, in ordering that the
Treasury rate be applied (unless the district court
concluded that the equities demanded a different
8 Because the rate is not set by or unique to patent law, the law
of the appropriate regional circuit applies. See Transmatic, Inc.
v. Gulton Indus., Inc., 180 F.3d 1343 (Fed. Cir. 1999).

App-83
rate), noted the award’s purpose in not allowing the
defendant to keep the income earned on the money it
effectively withheld from the plaintiff. See Frank
Music Corp. v. Metro-Goldwyn-Mayer Inc., 886 F.2d
1545, 1552 (9th Cir. 1989) (cited in Kleier). There does
not appear to be any risk of default by Time Warner
Cable in this case; thus, the rate selected by the Ninth
Circuit seems more appropriate here.
Moreover, as this Court noted in a recent case,
courts in this district “have consistently applied the
federal postjudgment interest rate set by 28 U.S.C.
§ 1961 in awarding prejudgment interest on federal
claims.” See Marten Tranport, Ltd. v. PlattForm
Advertising, Inc., 2016 WL 4000927, at *19 (D. Kan.
July 26, 2016) (Lungstrum, J.) (citing cases), appeal
filed (10th Cir. Aug. 23, 2016). Sprint notes that the
Court applied the postjudgment rate in Marten
because the plaintiff had not provided any reason for
not applying that rate there, see id., and it argues that
there is such a reason here, namely Sprint’s borrowing
during the interest period. The Court is unwilling to
wade into and assess Sprint’s financial condition
during that period, however. The Court concludes that
application of an earning rate and not a borrowing
rate is more appropriate here. Thus, the Court will
apply the postjudgment rate also in awarding
prejudgment interest in this case.
The parties agree that a rate of 1.06 percent (the
rate used in the original judgment entered in this
case) is the appropriate postjudgment interest rate.
Applying that rate, Sprint (by way of an affidavit by
its damages expert, Dr. Rao) calculates prejudgment
interest in the amount of $6,183,548.00 on damages

App-84
from October 1, 2010, to the date of the original
judgment, March 14, 2017. Time Warner Cable does
not take issue with that calculation. Thus, the Court
in its discretion awards Sprint prejudgment interest
in that amount, and it will issue an amended
judgment nunc pro tunc in the total amount of
$145,983,548.00.
Sprint also argues that any postjudgment interest
should be calculated on the total judgment that
includes the award of prejudgment interest. Time
Warner Cable has not opposed this request, and the
Court agrees that it is appropriate to determine
postjudgment interest in that fashion, as will be made
apparent in the amended judgment. 9
IT IS THEREFORE ORDERED BY THE COURT
THAT defendants’ posttrial motion for judgment as a
matter of law pursuant to Fed. R. Civ. P. 50(b) or for a
new trial (Doc. # 485) is hereby denied.
IT IS FURTHER ORDERED BY THE COURT
THAT plaintiff’s motion for an amendment of the
judgment, pursuant to Fed. R. Civ. P. 59, to add an
award of prejudgment interest (Doc. # 483) is hereby
granted in part. The Court awards prejudgment
interest to plaintiff in the amount of $6,183,548.00,
and the Court will issue an amended judgment
accordingly.

9 As Sprint points out, under the applicable statute,
postjudgment interest is compounded annually, see 28 U.S.C.
§ 1961(b), even if that fact is not noted explicitly in the judgment.
The Court declines Sprint’s invitation to calculate yearly
postjudgment interest amounts for the amended judgment.

App-85
IT IS SO ORDERED.
Dated this 30th day of May, 2017, in Kansas City,
Kansas.
s/ John W. Lungstrum
John W. Lungstrum
United States District Judge

